Report No. D-2010-026                 December 9, 2009




                  Joint Civilian Orientation
                    Conference Program
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.DODig.mil/audit/reports or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AFIS                          American Forces Information Service
ASD(PA)                       Assistant Secretary of Defense (Public Affairs)
C.F.R.                        Code of Federal Regulations
CLIN                          Contract Line Item Number
COR                           Contracting Officer Representative
DMA                           Defense Media Activity
JCOC                          Joint Civilian Orientation Conference
OASD(PA)                      Office of the Assistant Secretary of Defense
                               (Public Affairs)
ORF                           Official Representation Funds
OSD                           Office of Secretary of Defense
U.S.C.                        United States Code
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief
                                Financial Officer
WHS                           Washington Headquarters Services
                                 INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON. VIRGINIA 22202-4704 




                                                                      December 9, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF DEf'ENSE (PUBLIC
                 AFFAIRS)
               GENERAL COUNSEL OF HIE DEPARTMENT OF
                 DEFENSE
               DIRECTOR, ADMINISTRATION AND MANAGEMENT
               DIRECTOR, WASHINGTON HEADQUARTERS
                 SERVICES

SUBJECT: 	 Audit of the Joint Civilian Orientation Conference Program
           (Report No. D-2010-026)

We are providing this report for review and comment. We considered management
comments on a draft of this report when preparing the final report.

DOD Directive 7650.3 requires that all recommendations be resolved promptly. The
comments from the Deputy Chief Financial Officer and Director, Standards of Conduct
Office were responsive. Comments fi'om the Assistant Secretary of Defense (Public
Affairs) and Director, Administration and Management were partially responsive. The
Principal Deputy Assistant Secretary of Defense (Public Affairs) did not take steps to
implement the requirements contained in section 2262, title 10, United States Code and
did not agrec to conduct a review of possible ethical violations. The Acting Director,
Administration and Management, did not agree with the need for a legal review of
payments or the need to conduct a review into the potential misuse of Official
Representation Funds. As a result of management comments, we redirected the primary
responsibility for implementing Recommendations A.2 and B.3 to the Director,
Washington Headquarters Services. Based on comments received from the Direetor,
Standards of Conduct Office, we clarified potential ethical violations in Finding D. We
request additional comments from the Assistant Secretary of Defense (Public Affairs);
the Director, Administration and Management; and the Director, Washington
Headquarters Services to the recommendations listed in the table on the second page of
the Results in Brief by January 8, 2010.

If possible, send a .pdf file containing your comments to auddbo@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET). We appreciate the
eOUltesies extended to the staff. Please direct questions to me at (703) 601-5868.




                                        Patricia A. Marsh, CPA
                                        Assistant Inspector General
                                        Defense Business Operations
  Report No. D-2010-026 (Project No. D2007-D000FI-0215.001)                       December 9, 2009


               Results in Brief: Joint Civilian Orientation
               Conference Program

                                                               Investigate whether the collection and
What We Did                                               use of conference fees violated public law and
We reviewed whether the Assistant Secretary of            whether gift acceptance practices violated DOD
Defense (Public Affairs) (ASD[PA])                        ethics rules.
administered the Joint Civilian Orientation                    Report any violation of public law or
Conference (JCOC) program in accordance with              ethics rules to the Office of Secretary of
public law and DOD policies. This is the third            Defense.
in a series of audits conducted at the request of              Review and reconcile the funding and
the ASD(PA) to review the organizational                  expenditures for one conference and deposit any
structure and internal controls within that office.       residual conference fees into the U.S. Treasury.
We reviewed documentation supporting the
three conferences conducted from October 15,              We also recommend that the Offices of the
2006, through November 11, 2007.                          Under Secretary of Defense (Comptroller) and
                                                          DOD General Counsel review the use of
What We Found                                             Official Representation Funds and that the
                                                          Washington Headquarters Services initiate
The ASD(PA) did not ensure that his office                preliminary reviews to determine whether an
effectively administered the JCOC program.                Antideficiency Act violation occurred. We also
Specifically, the program managers did not                recommend a review of the use of the indefinite-
adhere to the legal requirements, violated the            delivery, indefinite-quantity contract for
Miscellaneous Receipts Statute, and incurred a            conference planning services.
potential Antideficiency Act violation. Program
managers also failed to implement section 2262,
title 10, United States Code correctly; misused           Management Comments and
Official Representation Funds; and may have               Our Response
violated DOD ethics rules. The JCOC managers              The Deputy Chief Financial Officer agreed to
augmented their budget by collecting and using
                                                          issue guidance implementing section 2262,
participant fees without legal authority and by           title 10, United States Code and agreed that a
spending $97,308 allocated to American Forces             review was needed to determine whether an
Information Service appropriated funds to                 Antideficiency Act violation had occurred.
contract for conference planning services.
                                                          Because the Director, Washington Headquarters
Internal controls over the JCOC program were
                                                          Services, was the actual fundholder, the Deputy
ineffective.
                                                          Chief Financial Officer requested that we redirect
                                                          primary responsibility for conducting a
What We Recommend                                         preliminary Antideficiency Act review to the
We recommend that the ASD(PA) work with                   Director. The Principal Deputy ASD(PA) agreed
                                                          to update DOD Instruction 5410.19 but
other DOD entities to:                                    indicated that he would fund future conferences
     Implement detailed procedures in DOD                with DOD appropriated funds and not
Instruction 5410.19 to ensure that the JCOC               implement section 2262, title 10, United States
program complies with section 2262, title 10,             Code. We disagree with this decision.
United States Code and update other JCOC
program guidance.                                         Congress enacted this section of the United
     Include the JCOC program in the annual              States Code to allow DOD to collect fees from
budget formulation process and prepare an                 non-DOD participants attending DOD
annual budget submission for all future                   conferences such as the JCOC. Therefore,
conferences.                                              ASD(PA) managers should incorporate these

                                                      i
          Report No. D-2010-026 (Project No. D2007-DOOOFI-021S.001)                                                                       December 9, 2009

       requirements into the DOD Instruction and other                                      requirements of section 2262, title 10, United
       lCOC guidance and use this authority for all                                         States Code and conserve appropriated funds.
       filture conferences to conserve the use of
       appropriated funds. However, if the Principal                                        The Acting Director, Administration and
       Deputy decides to use appropriated funds only,                                       Management, agreed to conduct a preliminary
       he needs to formally request this funding using                                      investigation into potential Antideficiency Act
       the annual budget process and seek                                                   violations and will rescind Administrative
       Congressional approval.                                                              Instruction No. 48. He also agreed to work with
                                                                                            ASD(PA) to reconcile lCOC 74 funds and to
       The Principal Deputy also disagreed with the                                         ensure future delivery orders on the contract
       need to conduct a review of potential ethical                                        meet 10 United States Code 2262. He disagreed
       violations and develop procedures for the                                            with the need to conduct a review of the use of
       purchase of mementos and other items used by                                         Official Representation Funds 01' to require a
       the lCOC program. He agreed to work with                                             legal review tor each use of the fimd. He also
       other agencies to reconcile lCOC 74                                                  disagreed with the need to conduct a review into
       expenditures, conduct reviews for potential                                          the use of American Forces Infonnation Service
       Antidefieiency Act violations, and implement                                         funds.
       the appropriate corrective actions. The Director,
       Standards of Conduct Office, partially agreed                                        We request that the ASD(PA); Director,
       with our recommendations but requested that we                                       Administration and Management; and Director,
       revise Finding D to discuss the potential                                            Washington Headquarters Services reconsider
       violation of section 2635.704, title 5, Code of                                      the recommendations addressed in the table
       Federal Regulations. The Director noted that                                         below and provide additional comments on the
       the ASD(P A) proposed position for funding                                           final report by January 8, 2010.
       future conferences fails to invoke the

       Recommendations Table
                                                                Recommendations                                                     No Additional Comments
       Management                                               Requiring Comment                                                   Required
rU~de;Se-cr-et-aiy';;fDae~~e-''''                               None                                                                A.2, B.3, C.1
'I'    (Comptroller)iChiefFinancial
       Officer
      ,,"'- -.-" ,.,- ''...-.-''--'.' -,,'-,',,'-"""" "I "'""--"" ..           "",-"'~"                   .."." ...-,,.,-­
  Assistant Secretary of Defense                                A.l.a, A.1.b, A.2, A.3.b, D.l,                                      A.1.e, A.3.a, B.3, C.2.a, C.2.b,
1 (Public Affairs)                                              D.2                                                                 C.2.c
                                                                                                                                    ~------·-"----"-'·-----'I
       Gencral Counsel                 Department               None                                                                     D.1
       of Defense
1      ~l:~~~~i~:~iilrstl:ation'and"''''--                      B.1, B.2
r- '-;._......"".-..."....;......".,,,.-,,.... .."..   --~.   [ ..""...   C'.~~,   .C".......'C'," .. C " - " - ' - - " ' ' ' - ­
       Director, Wash1l1gton Headquarters                       A.2, B.3, C.2.a, C.2.h                                              A.l.a, A.l.b, A.l.c, C.2.c, C.3
I      Services




                                                                               Ii
Table of Contents

Introduction                                                                1


      Objectives                                                            1

      Background                                                            1

      Review of Internal Controls                                           4


Finding A. Joint Civilian Orientation Conference Program Administration     5


      Recommendations, Management Comments, and Our Response               13 


Finding B. Use of Official Representation Funds                            19 


      Management Actions                                                   22 

      Recommendations, Management Comments, and Our Response               24 


Finding C. Conducting the Program Under the DOD Conference Law             27 


      Recommendations, Management Comments, and Our Response               37 


Finding D. Ethical Practices                                               40 


      Management Comments on the Finding and Our Response                  44 

      Recommendations, Management Comments, and Our Response               45 


Appendices

      A. 	Scope and Methodology 	                                          48 

             Prior Coverage                                                49 

      B. Conference Dates and Locations 	                                  50 

      C. Review of Financial Activity 	                                    51 

      D. Mementos and Other Items Received by DOD Personnel 	              54 


Management Comments

      Under Secretary of Defense (Comptroller)                            57 

      Assistant Secretary of Defense (Public Affairs)                     60 

      General Counsel of the DOD                                          64 

      Administration and Management, Office of Secretary of Defense       69 

Introduction
Objectives
The audit objective was to determine whether the Assistant Secretary of Defense (Public
Affairs) (ASD[PA]) administered the Joint Civilian Orientation Conference (JCOC)
program in accordance with public law and DOD policies. We conducted this audit as
part of a series of audits requested by the ASD(PA). This is the third in this series. We
initiated this audit after we discovered an organizational bank account maintained outside
of the U.S. Treasury that program managers used to fund JCOC activities. The audit was
expanded to review how the JCOC program manager attempted to conduct the program
using the provisions of section 2262, title 10, United States Code (10 U.S.C. 2262). See
Appendix A for a discussion of the scope, methodology, and prior audit coverage related
to the objective.

Background
The JCOC program is the oldest existing DOD public outreach program. The Office of
Assistant Secretary of Defense (Public Affairs) (OASD[PA]) conducts this program for
U.S. civilian leaders interested in expanding their military and national defense
knowledge. The OASD(PA) Community Relations and Public Liaison Division manages
the program. The initial concept, developed in 1948, was for a 10-day course, held four
times a year. The course dealt with national policy; the problems confronting the
United States in pursuing its policy; and the economic, political, and military means to
carry out the policy. Over time, the 10-day course became a 6- to 8-day conference
consisting of Pentagon briefings followed by field visits.

Currently, OASD (PA) hosts two conferences per year. Civilian participants attend
Pentagon briefings given by senior DOD leadership. They also observe field exercises,
fire weapons, participate in training, and interact with military personnel. The number of
participants depends upon how many people the prospective host can accommodate.
There is a conference fee for each participant to cover the cost of meals, lodging,
receptions, and incidental expenses. Since 2003, the JCOC program has expanded to
include field visits to international military installations hosted by overseas commands.
For example, JCOC 72 included a 2-day visit in the Washington, D.C. area and a site visit
to U.S. Central Command forces in Bahrain, Qatar, Kuwait, and Djibouti. Appendix B
contains a list of the sites visited during JCOCs 72, 73, and 74. 1




1
 DOD numbers the conferences sequentially. For example, the OASD(PA) held JCOC 72 in October 2006,
JCOC 73 in April 2007, and JCOC 74 in November 2007. Since its inception, DOD has held 77 JCOCs.


                                                1

Roles and Responsibilities
Assistant Secretary of Defense (Public Affairs)
DOD Directive 5122.05, “Assistant Secretary of Defense for Public Affairs (ASD[PA]),”
September 5, 2008, establishes the ASD(PA) as the principal staff assistant and advisor on
public affairs matters for the Secretary and Deputy Secretary of Defense. The ASD(PA)
is responsible for ensuring that the OASD(PA) effectively conducts assigned programs,
such as the JCOC. The ASD(PA) serves as the DOD public spokesperson and
information release authority; oversees the development of DOD public affairs policies,
plans, and programs; and serves as the official point of contact for public and media
activities by the Secretary and Deputy Secretary of Defense. DOD Directive 5105.74,
“Defense Media Activity (DMA),” December 18, 2007, established the DMA as a DOD
field activity under the ASD(PA). DMA is responsible for providing DOD and external
audiences a wide variety of information products. DOD Directive 5105.74 disestablished
the American Forces Information Service (AFIS).

Office of Secretary of Defense, Director of Administration and
Management
The Office of Secretary of Defense (OSD), Director of Administration and Management
(Director of Administration and Management) is the principal staff assistant and advisor
on DOD-wide organizational and administrative management matters for the Secretary
and Deputy Secretary of Defense. The Director develops and maintains organizational
charters, issues DOD directives and instructions, oversees assigned programs, serves as
the DOD point of contact for quality management matters, and analyzes and controls OSD
personnel requirements. The Director also is responsible for overseeing the Washington
Headquarters Services (WHS) field activity and administering Official Representation
Funds (ORF). WHS provides consolidated administrative and operational support, such
as financial management and contracting services, to DOD field activities, Military
Department headquarters elements, the White House, and several Defense agencies. The
WHS, Financial Management Directorate, manages a wide array of projects and initiatives
for the OSD, WHS, and selected DOD field activities. The directorate develops policies
for the administration of funds, provides accounting support, and establishes reporting
procedures for funds allotted to OSD and WHS. The WHS, Financial Management
Directorate, receives a Defense Operation and Maintenance appropriation allotment from
the Under Secretary of Defense (Comptroller)/Chief Financial Officer (USD[C]/CFO) to
support the OSD, from which ASD(PA) receives an annual budget target.

Public Law and DOD Guidance
The ASD(PA) must comply with various sections of the United States Code (U.S.C.)
when conducting the JCOC program. Public Law 109-364, Section 1051, “Department of
Defense Conferences: Collection of Fees to Cover DOD Costs,” October 17, 2006, as
codified in 10 U.S.C. 2262, granted DOD the authority to collect and use funds collected
from civilian participants attending a DOD conference.

According to 10 U.S.C. 127, “Emergency and Extraordinary Expenses,” the Secretary of
Defense, DOD Inspector General, and Military Department Secretaries may use a portion


                                            2

of their Operation and Maintenance funds for any emergency or extraordinary expense
which they cannot anticipate or classify. At their own discretion, these individuals may
spend the funds for any purpose they deem proper. DOD Directive 7250.13, “Official
Representation Funds (ORF),” February 17, 2004, as amended, guides the use of ORF to
maintain the good standing and prestige of the United States and DOD by extending
official courtesies, such as receptions, dinners, and similar events, to authorized guests.

According to 31 U.S.C. 3302, “Custodians of Money,” 2 except when Congress grants
authority in another public law to collect and expend public money, a Government official
or agent who has custody or possession of public money must keep the money safe
without lending, using, exchanging, or depositing the money in a bank. Commonly
known as the Miscellaneous Receipts Statute, 31 U.S.C. 3302 provides that a Government
official or agent who receives money for the Government from any source must deposit
the money in the U.S. Treasury without deduction for any charge or claim.

DOD Instruction 5410.19, “Public Affairs Community Relations Policy Implementation,”
November 13, 2001, provides procedures for implementing policy, delineates command
relationships for community relations activities and procedures, and prescribes procedures
for the conduct of DOD public affairs community relations activities and programs. It
provides the guidelines for managing the JCOC program, including establishing the staff
requirements.

Administrative Instruction No. 48, “Joint Civilian Orientation (JCOC) Fund,”
February 10, 1992, requires the OASD(PA), Director of Community Relations and
Public Liaison to establish the JCOC program conference plan, develop policies for
conducting the conferences, and appoint the conference director. The conference director
is responsible for:

    		 implementing the conference plan and policies;

    		 preparing a financial plan detailing JCOC fund collections and expenditures; and

    		 furnishing a copy of the approved financial plan to the Director, Budget and Finance,
        WHS.

Administrative Instruction No. 48 also requires the Director, Budget and Finance, WHS,
or an authorized representative, to appoint a treasurer and an assistant treasurer to
maintain custody of the JCOC funds and allows the treasurer to operate a bank account
outside the U.S. Treasury to pay for conference expenses.




2
    31 U.S.C, 3302 was originally passed in 1982.


                                                    3

Administrative Instruction No. 48 requires the conference director to review and approve
expenditures based on supporting documentation, such as purchase orders and vendor
invoices. The JCOC staff consists of the conference director, 3 the treasurer,
representatives from the Military Services, and other OASD(PA) personnel.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as intended
and to evaluate the effectiveness of the controls. In DOD Inspector General Report No.
D-2009-028, “Organizational Structure and Managers’ Internal Control Program for the
Assistant Secretary of Defense (Public Affairs) and American Forces Information
Service,” December 10, 2008, we recommended significant changes in the OASD(PA)
organization structure and internal control processes. During that audit, we determined
that internal control weaknesses existed. During this audit, we identified an additional
internal control weakness. The ASD(PA) had not established controls to ensure that the
JCOC program complied with public law and DOD policies. The implementation of the
recommendations contained in Findings A, C, and D will improve internal control over
the JCOC program. Finding B will provide additional internal controls over the use of
ORF by the OSD. We will provide a copy of the report to the senior OSD official(s)
responsible for internal controls in the OASD(PA.




3
 This report refers to the JCOC conference director as the JCOC program manager. The same individual
served as program manager for JCOCs 72 and 73. The ASD(PA) assigned a different program manager for
JCOC 74.


                                                 4

Finding A. Joint Civilian Orientation
Conference Program Administration
The ASD(PA) did not ensure that the program managers effectively administered and
managed the JCOC program. This occurred because the Offices of the Director of
Administration and Management and ASD(PA) did not update program guidance to
comply with changing public law and DOD policies. In addition, the existing guidance
did not require program managers to prepare a submission for the JCOC program as part
of the annual OASD(PA) Defense budget formulation process. As a result, the program
managers violated the Miscellaneous Receipts Statute by inappropriately collecting or
expending $403,000 in conference fees for JCOCs 72, 73, and 74. Program managers also
did not properly budget for and obligate $160,179 in Defense Operation and Maintenance
funds. Consequently, the program managers may have violated 31 U.S.C. 1341(a) (the
Antideficiency Act) by inappropriately augmenting the ASD(PA) budget and failing to
obligate JCOC program expenses properly before incurring expenses. In addition, they
may have inappropriately refunded fees collected from the JCOC civilian participants.

JCOC Program Guidance
JCOC staff followed DOD Instruction 5410.19 and Administrative Instruction No. 48 to
conduct the biannual conferences. These instructions contained outdated and
inappropriate guidance that directed the staff to collect, maintain, and expend conference
fees in direct violation of the Miscellaneous Receipts Statute. The guidance in DOD
Instruction 5410.19 and Administrative Instruction No. 48 also did not require the
OASD(PA) to prepare an annual submission to the OSD budget estimate for conducting
the conference, including the cost for providing DOD personnel to support the
conferences and the need for reimbursable authority allowing OASD(PA) to collect and
use fees from the participants. DOD Instruction 5410.19 and Administrative Instruction
No. 48 inappropriately allowed JCOC program managers to augment the OASD(PA)
budget and misuse ORF (see Finding B). In addition, OASD(PA) managers failed to
determine the total DOD costs for conducting each conference, which led to the potential
misuse of funds.

The guidance also did not implement the legal authority granted in 10 U.S.C. 2262 for
DOD to collect and use conference fees. When Congress issued the provisions of
10 U.S.C. 2262 on October 17, 2006, it granted DOD the legal authority to use conference
fees collected from individual and commercial participants. However, when we discussed
the statute with the JCOC staff in September 2007, they were unaware of the
10 U.S.C. 2262 provisions. The staff assumed that the Office of the Director of
Administration and Management would update Administrative Instruction No. 48 and the
OASD(PA) would update DOD Instruction 5410.19 to ensure that they complied with the
public law. Consequently, the program managers failed to comply with the conferencing
provisions of 10 U.S.C. 2262 during JCOC 73, and incorrectly applied them during




                                             5

JCOC 74. 4 (Finding C discusses the problems that OASD[PA] had complying with the
provisions of 10 U.S.C. 2262.) During JCOCs 72 and 73, the JCOC program managers
and the treasurer assigned by WHS to support the program continued to follow the
outdated guidance in Administrative Instruction No. 48. Specifically, they:

        collected JCOC conference fees,

        maintained a JCOC bank account,

        expended and refunded the fees they collected, and

        maintained residual fees in the bank account.

Collecting Conference Fees
Since the inception of the JCOC Program at least until 10 U.S.C. 2262 granted them the
authority, JCOC program managers did not have legal authority to collect conference fees
from either the civilian participants or the organizations that sponsored them. Before
October 17, 2006, the Office of General Counsel of the DOD (DOD General Counsel)
was unable to identify any specific Congressional authority that granted JCOC program
managers the authority to collect conference fees. The Associate Deputy DOD General
Counsel (Fiscal) stated that he believed that the authority granted within 10 U.S.C. 113,
“Secretary of Defense,” January 3, 2007, provided DOD with broad authority, including
the ability to conduct the JCOC conferences. 5

Administrative Instruction No. 48 permitted the JCOC staff to collect and spend
conference fees, as well as to maintain a bank account outside of the U.S. Treasury. For
the three conferences reviewed, the JCOC program managers and treasurer collected a
$3,000 conference fee for each JCOC participant. In total, they collected and deposited
$403,000 ($274,000 in a bank account for JCOCs 72 and 73 and $129,000 in a
reimbursable account assigned to the OASD[PA] for JCOC 74). They spent these
conference fees to offset the cost of providing the participants with lodging, meals,
mementos, and other items. They retained excess conference fees in either the bank
account (JCOCs 72 and 73) or a reimbursable account (JCOC 74). Although the authority
in 10 U.S.C. 113 may have supported the collection of conference fees at the inception of
the JCOC program in 1948, the subsequent issuance of the Miscellaneous Receipts Statute
prohibited DOD from collecting and maintaining funds outside of the U.S. Treasury
without specific Congressional authorization.

Also, since the inception of the JCOC program at least until DOD implemented
10 U.S.C. 2262, which provided them with legal authority, the ASD(PA) staff used
procedures for collecting and using JCOC conference fees that violated the Miscellaneous


4
  The issuance of Public Law 109-364 on October 17, 2006, occurred while JCOC 72 was ongoing.
5
 According to 10 U.S.C. 113, the Secretary of Defense has the authority, unless specifically prohibited by
law, to perform any of his functions or duties, or exercise any of his powers through, or with the aid of, such
persons in, or organizations of the DOD as he may designate.


                                                       6

Receipts Statute. 6 The outdated guidance in Administrative Instruction No. 48 may have
also caused the program managers to violate the Antideficiency Act. Specifically, the
OASD(PA) augmented the OSD budget with the conference fees the JCOC program
managers collected and used, and unless the annual OSD allotment to the Defense
Operation and Maintenance appropriation had sufficient appropriated funding available
and the ASD(PA) had the authority to use the funds to pay for conference expenses, an
Antideficiency Act violation occurred. For conferences held after October 17, 2006,
10 U.S.C. 2262 provides the JCOC program manager with the required authority to collect
and use conference fees. Had JCOC program managers properly implemented
10 U.S.C. 2262, they could have prevented the potential Miscellaneous Receipts Statute
and Antideficiency Act violations discussed in this finding.

The ASD(PA) and the Director, WHS, should work together to update DOD
Instruction 5410.19 to comply with the requirements contained in 10 U.S.C. 2262. They
should either update Administrative Instruction No. 48 or rescind it and develop other
enforceable guidance delineating the responsibilities for conducting future conferences to
the OASD(PA) and WHS. The updated guidance should be coordinated with the Office
of DOD General Counsel to ensure legal sufficiency. The ASD(PA) and the Director,
WHS, should also work with the Offices of the Under Secretary of Defense (Comptroller)
and DOD General Counsel to initiate a preliminary Antideficiency Act review of the use
of conference fees in conducting the JCOC program since the issuance of the
Miscellaneous Receipts Statute. The review should make a determination as to whether
the use of conference fees inappropriately augmented the OSD budget. If the review
identifies problems, the ASD(PA) should take appropriate actions and legal remedies to
address improprieties and report the findings to the OSD.

Maintaining a JCOC Bank Account
The JCOC program guidance also sanctioned prohibited practices. Specifically,
Administrative Instruction No. 48 inappropriately allowed the treasurer appointed by
WHS to establish and maintain a bank account. The treasurer used this account to deposit
all conference fees collected and pay for JCOC program expenses. In addition,
Administrative Instruction No. 48 directed the treasurer to maintain a residual balance in
the bank account to cover any start-up costs for subsequent conferences. From
September 2006 through September 2007, the bank account had a balance as high as
$164,000. (Appendix C shows the sources of funds and outlays for each of the three
conferences reviewed.) Although the treasurer maintained adequate supporting
documentation for most of the deposits and disbursements he made, and generally
followed Administrative Instruction No. 48, maintaining a bank account outside the




6
 Under 10 U.S.C. 2262, DOD Components received the authority to collect fees from non-DOD conference
participants. The statute required the DOD Component to credit the fees collected to the appropriation or
account from which it would pay conference expenses and required the deposit of any excess fees collected
in the U.S. Treasury as miscellaneous receipts.


                                                    7

U.S. Treasury violated the Miscellaneous Receipts Statute. By maintaining the bank
account, the JCOC program managers were able to bypass most budgeting, contracting,
and purchasing controls in place for appropriated funds.

On August 17, 2007, we discussed our concerns about the bank account with the AFIS
General Counsel, who then worked with the Acting DOD Deputy General Counsel
(Fiscal) and advised the JCOC program manager that maintaining the bank account
violated the Miscellaneous Receipts Statute. The DOD legal counsel advised the program
manager to deposit the funds from the bank account into the U.S. Treasury immediately.
On September 4, 2007, the treasurer wrote a $50,118 check to the U.S. Treasury, leaving
$372 in the account to cover two uncleared checks. On December 21, 2007, the treasurer
completely removed all funds from the bank account and formally closed the bank
account on January 16, 2008. The ASD(PA) and the Director, WHS, should coordinate
with the Offices of the Under Secretary of Defense (Comptroller) and DOD General
Counsel to review the closure of the bank account to ensure that the treasurer correctly
closed the account.

Using Conference Fees
The JCOC program managers did not effectively manage conference fees. (We discuss
other problems with managing conference fees in Findings C and D.) When JCOC
participants signed up for the conference, the JCOC staff provided them with a welcome
packet. Participants were required to sign a “Letter of Reply” acknowledging that they
understood the conference conditions. The letter specified that a participant’s conference
fees paid for conference costs, such as meals, receptions, hotel accommodations, official
mementos, photos, and other miscellaneous expenses. The welcome packet did not
contain information that indicated the staff would also use the conference fees to defray
the costs of items or events not directly associated with the conference that the participant
attended. For example, documentation supporting JCOC 72 showed the collection of
$135,000 in conference fees, of which the program manager had $134,000 to use for
participant-related expenses. 7 Total participant-related expenses for JCOC 72 amounted
to $121,700, resulting in an excess $12,300 in conference fees. The treasurer neither
returned the excess conference fees to the participants nor deposited the fees in the
U.S. Treasury as a miscellaneous receipt. Instead, he retained these fees in the JCOC
bank account, and the staff used these fees to begin funding JCOC 73 activities.

In addition, we found that OASD(PA) personnel used the conference fees to purchase
items and services that they should have used appropriated funds to acquire. For example:




7
  The $135,000 included $3,000 collected from each of 44 participants ($132,000) and $2,000 collected
from another individual who also attended JCOC 71 but had to leave that conference early. The JCOC
program manager allowed this individual to attend JCOC 72 at a discounted rate. The JCOC program
manager also collected and refunded an additional $1,000 from two prospective JCOC 72 participants who
did not participate in the conference. Therefore, the JCOC 72 program manager had $134,000 available for
use.


                                                   8

     		 On September 11, 2006, the OASD(PA) held a breakfast and a luncheon for the
         JCOC alumni and others attending the Freedom Walk in Washington, D.C. No
         individuals scheduled to attend JCOC 72 were present at this reception. However,
         on November 13, 2006, the treasurer, at the direction of a Deputy Assistant
         Secretary of Defense, wrote a $300 check from the JCOC bank account to pay for
         the luncheon. Because the Freedom Walk is not associated with the JCOC
         program, the Deputy Assistant Secretary of Defense should not have directed the
         treasurer to spend any conference fees on a Freedom Walk event. Using the
         residual fees in the JCOC bank account to pay for this event inappropriately
         augmented the OASD (PA) budget. The Deputy Assistant Secretary of Defense
         who conducted the reception should have funded this event using funds
         appropriated to support the Freedom Walk or had the individuals pay for their
         own meals.

     		 On October 13, 2006, the treasurer purchased two combat utility uniforms,
         totaling $132.60, for a military member of the JCOC 72 staff. As directed by the
         JCOC program manager, the treasurer inappropriately used the fees in the bank
         account to purchase the uniforms. The JCOC program manager should have
         either required the individual to use personal funds to pay for the uniforms or
         justified the use of appropriated funds to support a mission need. The bank
         records did not show any reimbursement for these items.

     		 On February 16, 2007, the JCOC program manager purchased 1,000 copies of the
         “JCOC Year in Review” book for $1,900. The purchase order specifically stated
         that 50 percent of the books were for JCOC 71 and the other half were for
         JCOC 72. Although the 88 participants of JCOCs 71 and 72 received a book, the
         JCOC staff could not explain why they purchased an additional 912 books more
         than the actual number of participants attending these events. If the JCOC staff
         purchased the large number of books for any reason other than to provide a
         memento to the participants attending JCOCs 71 and 72, they should have
         budgeted for and provided justification for the use of appropriated funds, rather
         than using the conference fees in the bank account.

For JCOC 73, the treasurer collected a total of $139,000 in conference fees, of which the
program manager could use $136,000 to pay participant-related expenses. 8 However,
documentation supporting the conference showed the JCOC program managers paid
$141,869 in participant-related expenses using the JCOC bank account. The JCOC
program manager covered the $5,869 cost overrun by using the residual fees from
previous conferences. Because JCOC program managers should have deposited any
residual fees with the U.S. Treasury after each conference, the program manager should
not have had these funds available for use during JCOC 73. Therefore, unless the


8
  The $139,000 includes $3,000 collected from each of the 45 participants ($135,000) who attended the
conference and two $500 nonrefundable deposits retained for individuals who did not attend the conference.
The program manager had also collected and refunded another $3,000 from two individuals who decided not
to attend the conference. The program manager had $136,000 for use during JCOC 73.


                                                    9

OASD(PA) had sufficient Defense Operation and Maintenance funds to support this cost
overrun, it may have violated the Antideficiency Act. The ASD(PA) and the Director,
WHS, should work with the Offices of the Under Secretary of Defense (Comptroller) and
DOD General Counsel to conduct a preliminary review of the JCOC 73 expenditures and
determine whether the allotment for the OSD FY 2007 Defense Operation and
Maintenance appropriation had sufficient funds available to cover the $5,869 cost overrun.
The preliminary review should be performed in accordance with DOD Financial
Management Regulation 7000-14-R, volume 14, “Administrative Control of Funds and
Antideficiency Act Violations,” chapter 3, “Preliminary Reviews of Potential Violations,”
February 2008. If sufficient funding was not available, the ASD(PA) should report a
potential Antideficiency Act violation.

Refunding Participant Deposits
The JCOC program managers inappropriately refunded deposits to prospective
participants unable to attend or not selected to attend conferences. Through our review of
documentation supporting JCOCs 72 and 73, we identified three instances in which the
program managers directed the treasurer to refund the deposit paid for by a company or
other sponsoring organization directly to the prospective participant. Refunding the
deposit to a prospective participant rather than the company or sponsoring organization
could have subjected the Government to a potential liability if an organization had
subsequently requested a refund. The refunds may have also resulted in the improper
distribution of corporate and campaign funds to individuals, which can have legal
consequences. Here are the details on the three instances.

    		 On August 25, 2006, the treasurer received a $500 check from a newspaper as a
        deposit for an individual to attend JCOC 72. On September 1, 2006, the
        newspaper’s parent company paid an additional $3,000 for the same individual to
        attend the conference. Because each JCOC 72 participant was only required to
        pay $3,000, JCOC program managers determined that they owed a $500 refund.
        On October 15, 2006, the treasurer issued the refund check to the prospective
        participant rather than returning the deposit to one of the newspaper companies.
        This practice may have resulted in an unauthorized payment to an individual.

    		 On August 30, 2006, the treasurer received a $500 check from a political action
        committee for its candidate to attend JCOC 72. On September 28, 2006, after the
        JCOC program manager did not select the individual to attend the conference, the
        treasurer refunded the $500 deposit to the individual rather than refunding the
        deposit to the political action committee. The treasurer may have improperly
        distributed funds to the individual.

    		 On March 9, 2007, the treasurer received a $500 check from a film company for
        an individual to attend JCOC 73. On April 17, 2007, another company sent a
        $3,000 check for the same individual to attend the conference. On May 7, 2007,
        the treasurer issued the participant a $500 check instead of refunding the deposit




                                            10 

         to the film company. This action did not ensure that the company paying for the
         event received the refund. The treasurer may have inappropriately distributed funds
         to an individual.

Administrative Instruction No. 48 allowed the refund of any unexpended conference fees.
However, the Letter of Reply signed by the participants informed them that the
$500 advance deposit was nonrefundable. The refund practices resulted in erroneous
payments to individuals and may have violated the Miscellaneous Receipts Statute, which
allows the treasurer to deposit funds collected into only the U.S. Treasury. The ASD(PA)
and Director, WHS, should work with the Office of DOD General Counsel to review these
three incidents and determine whether the treasurer correctly refunded the overpaid
conference fees. If not, they should take appropriate actions to ensure that they collect the
refunded fees from the individuals and return the funds to the proper sponsoring
organization. In addition, the ASD(PA) should ensure that DOD Instruction 5410.19
defines refund procedures.

JCOC Program Budget Formulation
The OASD(PA) did not prepare a budget estimate for conducting the JCOC program. The
lack of a specific budget estimate prevented the program managers from making informed
decisions regarding funding requirements for JCOCs 72, 73, and 74. Although the JCOC
has been an ongoing DOD program since 1948, the OASD(PA) had not routinely submitted
a JCOC program budget estimate to conduct the biannual conferences. JCOC program
managers knew in advance where and when conference activities would take place, so they
had sufficient information to properly budget for these events as part of the normal DOD
budget formulation process. Office of Management and Budget Circular A-11,
“Preparation, Submission, and Execution of the Budget,” June 26, 2008, states that the
budget estimate of a Federal entity must reflect all requirements anticipated at the time of
budget submission and should cover:

        continuing activities, including those that must be reauthorized for the budget year;
        authorized activities that are proposed for the budget year;
        amounts necessary to meet specific financial liabilities imposed by law; and
        decreases for activities proposed for termination or reduction.

DOD guidance for administering the JCOC program did not require the program managers
to prepare and submit a budget as part of the annual Defense budget formulation process.
Because the OASD(PA) actually administered the program in accordance with its
community relations mission, it should have requested funding to support the JCOC
program. 9 The OASD(PA) did not include the JCOC program costs as part of its FY 2006
through FY 2008 budget estimate submissions. Instead, JCOC program managers told us


9
  DOD Inspector General Report No. D-2009-028 states that OASD (PA) did not conduct an adequate budget
formulation process to identify the funding requirements necessary to conduct programs and activities at the
OSD level. It also discusses the use of AFIS funding to support JCOC activities. The report recommended
that the OASD(PA) identify the funding requirements necessary to support OASD(PA) programs and include
the requirements in its annual budget.


                                                    11 

that they used Administration Instruction No. 48 to guide their use of a variety of funding
sources when conducting each conference. As a result, the ASD(PA) had not accurately
quantified the actual cost for each conference or made the appropriate requests for funding
and reimbursable authority to conduct the conferences and collect fees. Developing this
budget submission would have established the framework for providing the proper
management oversight of program fund expenditures.

JCOC Funding Sources
The JCOC program managers used two separate funding sources to conduct conferences,
without proper controls in place to ensure that they expended funds as required by
applicable laws, regulations, and directives. The JCOC program managers used the
Defense Operation and Maintenance appropriation and the conference fees that they
collected to fund conference activities. 10 Table 1 shows a breakdown of the funds
available to support each conference.

                                 Table 1. JCOC Funding Sources
     Type of Funding                 JCOC 72    JCOC 73     JCOC 74                         Total
Defense Operation and
Maintenance Appropriation               $ 15,714           $ 12,107       $97,308            $125,129
Official Representation Funds
(sub-fund within the Defense
Operation and Maintenance
appropriation)                             10,000             7,000        18,050               35,050
Conference Fees Collected
and Available for Use                    134,000            136,000      111,000              381,000
Total Funding                           $159,714           $155,107     $226,358             $541,179

Defense Operation and Maintenance Appropriation
The JCOC staff did not appropriately obligate $160,179 ($125,129 and $35,050 from
Table 1) in Defense Operation and Maintenance appropriation funds used for JCOCs 72,
73, and 74. Before incurring any costs, proper budget execution required that the program
managers commit and obligate the estimated costs for providing meals, transportation,
hotel accommodations, and other expenses for DOD personnel serving as JCOC staff and
escorts or otherwise required to attend conference functions. For JCOCs 72 and 73, the
program managers did not obligate the funds needed to support the conferences until more
than 3 months after conference completion. This occurred because the treasurer made it a
practice to use the conference fees to pay for the costs related to DOD personnel attending
the conferences. After each conference, he requested reimbursement from the Defense
Operation and Maintenance appropriation to replenish the JCOC bank account for the
conference fees used. As a result, the JCOC program managers and treasurer obligated the
Government to pay conference costs without the proper authority and incurred


10
  The use of the Defense Operation and Maintenance appropriation included those funds set aside for use as
part of the ORF (see Finding B).


                                                    12 

unauthorized commitments that may have resulted in an Antideficiency Act violation, if the
OASD(PA) did not have sufficient appropriated funding to cover these costs. In addition,
using the conference fees to pay these expenses inappropriately augmented the OASD(PA)
budget. Furthermore, reimbursing the JCOC bank account with appropriated funds after
the conference violated the Miscellaneous Receipts Statute. We discuss problems with the
use of ORF in Finding B.

The ASD(PA) should require that program managers properly budget and obligate for all
expenses related to DOD personnel supporting the JCOC program. The budget estimate
should include accounting for all anticipated conference costs and should cite the
OASD(PA) portion of the Defense Operation and Maintenance appropriation. The
ASD(PA) submission to the annual budget should identify the total amount of funding
needed to pay for DOD conference expenses and request the reimbursable authority needed
to collect and use fees from non-DOD participants.

Conclusion
JCOC program managers used outdated guidance that contradicted the public law and
DOD guidance to administer and manage the JCOC program. By following the outdated
guidance in DOD Instruction 5410.19 and Administrative Instruction No. 48, the program
managers inappropriately collected, maintained, and expended conference fees without
authorization and in violation of the Miscellaneous Receipts Statute. As a result, while
conducting JCOCs 72, 73, and 74, the program managers inappropriately collected or used
$403,000 in conference fees outside the authority granted under 10 U.S.C. 2262 and did not
properly submit a budget request for or correctly obligate $160,179 in Defense Operation
and Maintenance appropriation funds. Program managers also used conference fees for
purposes other than those intended by conference participants. By collecting and
expending the conference fees without proper authority and for other than the intended
purpose, the JCOC program managers augmented the OASD(PA) budget and may have
violated the Antideficiency Act. The ASD(PA) and Director, WHS, need to work with the
DOD General Counsel to update the guidance used to run the JCOC program and institute
controls over the JCOC program’s use of funds, which includes implementing the
requirements in 10 U.S.C. 2262. After the new guidance is established, the OASD(PA)
needs to ensure that the JCOC program manager, other JCOC staff, and WHS personnel
supporting the JCOC program receive training on the new guidance. In addition, the
ASD(PA) and Director, WHS, must initiate a preliminary review into whether the use of
conference fees violated the Miscellaneous Receipts Statute and Antideficiency Act.

Recommendations, Management Comments, and Our
Response
Redirected Recommendation
Based on management comments received from the Deputy Chief Financial Officer, we
redirected the primary responsibility for Recommendation A.2 to the Director, WHS,
because WHS is the fundholder for the OASD(PA).




                                           13 

A.1. We recommend that the Assistant Secretary of Defense (Public Affairs) and the
Director, Washington Headquarters Services, work with the DOD General Counsel to
establish detailed policies and procedures for managing future Joint Civilian
Orientation Conferences in compliance with section 2262, title 10, United States Code.
Specifically, they should:

       a. Update DOD Instruction 5410.19 to provide guidance on how to effectively
administer and manage the Joint Civilian Orientation Conference program. This
guidance should require the development and submission of an annual budget
estimate for conducting the program, including an estimate of the amount of
appropriated funding needed to support DOD personnel involved in the program and
the amount of reimbursable authority needed to collect fees from non-DOD
participants. The instruction should also describe refund procedures for conference
fees.

        b. Update Administrative Instruction No. 48 or rescind it and issue a new
instruction or other enforceable standard operating procedure delineating the
responsibilities of the Joint Civilian Orientation Conference program manager and
staff to administer and oversee the program. The guidance should also define the
responsibilities of the Washington Headquarters Services in supporting the
program’s planning, execution, and funds control.

       c. Provide training on the new guidance to the Joint Civilian Orientation
Conference program manager and staff, as well as Washington Headquarters
Services personnel supporting the program.


Assistant Secretary of Defense (Public Affairs) Comments
The Principal Deputy ASD(PA) partially agreed and stated that effective with the
conference to be held in the spring of 2010 (JCOC 79), his office would no longer collect
participant fees and would fund all future conferences using DOD appropriated funds. He
stated that his office would update DOD Instruction 5410.19 to reflect this change and
rescind Administration Instruction No. 48. He also agreed to provide training to staff to
enhance JCOC program management.

Administration and Management, OSD Comments
The Acting Director, Administration and Management, responding for WHS, agreed and
stated that WHS would rescind Administrative Instruction No. 48 and support ASD(PA)
with training to enhance the JCOC program.

DOD General Counsel Comments
Although not required to comment, the Director, Standards of Conduct Office, agreed with
the recommendation and had no legal objections.




                                            14 

Our Response
The Acting Director’s comments were responsive. However, the Principal Deputy’s
comments were only partially responsive. Congress issued 10 U.S.C. 2262 to permit DOD
to collect and use non-DOD participant fees to fund DOD conferences to conserve the use
of appropriated funds. Based on this audit, the USD(C)/CFO updated the DOD Financial
Management Regulation to provide implementing instructions for Components to comply
with the provisions of 10 U.S.C. 2262. The plan to fund future conferences with
appropriated funds would not result in the best use of DOD appropriated funds and is not
consistent with the authority Congress granted to DOD under 10 U.S.C. 2262. The
ASD(PA) plan to use appropriated funds would require an assessment of whether funding
future conferences would meet the requirements of 31 U.S.C. 1345, “Expenses of
Meetings,” and other provisions of fiscal law. In addition, the OASD(PA) would need to
develop a budget submission requesting the use of appropriated funds to pay for future
conferences and seek Congressional approval. In the absence of such approval, the
ASD(PA) should update DOD Instruction 5410.19 to provide procedures on how to
effectively administer and manage the JCOC program, as authorized by Congress, using
the guidance provided in DOD Financial Management Regulation, volume 12, chapter 32.
We request that the ASD(PA) reconsider his position on funding future conferences with
DOD appropriated funds and provide additional comments on the final report. The
ASD(PA) should provide support on how funding future conferences with DOD
appropriated funds meets the requirements of 31 U.S.C. 1345. He should also update DOD
Instruction 5410.19 to direct the preparation of an annual budget estimate for conducting
the program. If the ASD(PA) changes his position, the additional comments on the final
report should explain how his office would update guidance for conducting future
conferences using 10 U.S.C. 2262. In either situation, the additional comments should
address the roles and responsibilities of the OASD(PA) and WHS in conducting future
conferences.

A.2. We recommend that the Director, Washington Headquarters Services, in
conjunction with the Offices of the Under Secretary of Defense (Comptroller),
Assistant Secretary of Defense (Public Affairs), and DOD General Counsel, initiate a
preliminary review of the use of the Joint Civilian Orientation Conference fees
received since the inception of the Miscellaneous Receipts Statute. The review should
determine whether:

  		 augmenting the Office of Secretary of Defense appropriated funds allotment
      with conference fees resulted in an Antideficiency Act violation,

  		 sufficient Defense Operation and Maintenance funds were available for the
      $5,869 cost overrun on Joint Civilian Orientation Conference 73, and

  		 the treasurer correctly closed the bank account and refunded overpaid 

      conference fees. 





                                           15 

Following the preliminary review, they should take appropriate actions or legal
remedies to address improprieties and report the findings to the Office of Secretary of
Defense.

Under Secretary of Defense (Comptroller) Comments
The Deputy Chief Financial Officer partially agreed and stated that DOD needs to conduct
a preliminary Antideficiency Act review. However, he stated that we should specifically
address the recommendation to the Director, WHS, who is the actual fundholder for
OASD(PA). He stated that he would request that the Director, WHS, conduct a
preliminary investigation, complete it within 90 days, and provide the results to the
USD(C)/CFO.

Assistant Secretary of Defense (Public Affairs) Comments
The Principal Deputy agreed and stated that he agreed with the Deputy Chief Financial
Officer’s position that we direct the responsibility for initiating the review to the Director,
WHS.

DOD General Counsel Comments
The Director, Standards of Conduct Office partially agreed and stated that she supported
the Deputy Chief Financial Officer’s comments. The Director also stated that the
ASD(PA) proposed actions failed to exercise the authority granted in 10 U.S.C. 2262 to
collect and expend participant fees, thereby conserving the use of appropriated funds.

Administration and Management, OSD Comments
The Acting Director, Administration and Management, responding for WHS, agreed and
stated that he agreed with the Deputy Chief Financial Officer’s response. He further stated
that the finding was de minimis because they had properly refunded the conference fees to
those not attending and the treasurer had informed the program manager that actual costs
exceeded fees and the program manager stated that adequate funds existed.

Our Response
The Deputy Chief Financial Officer’s and Director’s comments were responsive. The
comments from the Principal Deputy ASD(PA) were partially responsive. Although we
have redirected primary responsibility for conducting a preliminary review of the use of
JCOC fees to the Director, WHS, the OASD(PA) must assist WHS in reviewing past
conference practices to determine the nature and extent of any violations. The ASD(PA)
and WHS should address whether they collected sufficient fees to defray non-DOD
participation at JCOC 73 and whether the use of these fees and other appropriated funds
complied with the provisions of the Antideficiency Act. Because the JCOC program
manager collected and used fees for JCOC 72 before the implementation of 10 U.S.C.
2262, the provisions of the Miscellaneous Receipt Statute must govern the collection and
use of these fees. Consequently, the review should address whether the use of these fees
augmented the OSD budget. We request that the ASD(PA) provide additional comments
on the final report explaining how and when his office will assist the Director, WHS, in
conducting a review for potential Antideficiency Act violations.


                                               16 

The Acting Director’s comments were partially responsive. His response does not clearly
define when he will conduct and complete the preliminary review and his comment that our
findings that gave rise to this recommendation are de minimis is not accurate. Program
managers conducted the JCOCs in violation of the Miscellaneous Receipt Statute since at
least 1992, when WHS issued Administrative Instruction No. 48. The $139,000 in fees
collected for JCOC 72 and all JCOC fees collected before JCOC 72 inappropriately
augmented the DOD appropriation. Therefore, the amount of potential Antideficiency Act
violations is considerably larger than addressed in this finding. In addition, the OASD(PA)
did not use the provisions of 10 U.S.C. 2262 during JCOC 73. As stated in the report, the
refunds sometimes went to individuals who had not provided the conference fees to the
JCOC treasurer. The review should determine whether refunding the individual
inappropriately provided those individuals with campaign or corporate funds. If so,
appropriate remedial actions need to occur. Having a balance in an improperly established
JCOC bank account did not provide authority to spend this money to defray JCOC 73
costs. The JCOC program manager should have turned the funds in to the U.S. Treasury as
miscellaneous receipts when collected. Therefore, the review must determine whether at
least $5,869 existed in the OSD allotment to the FY 2007 Defense Operation and
Maintenance appropriation to cover these expenses. We request that the Director, WHS,
provide additional comments on the final report explaining how and when his office will
complete a review for potential Antideficiency Act violations.

A.3. We recommend that the Assistant Secretary of Defense (Public Affairs):

      a. Address improprieties identified in Recommendation A.2. and take
appropriate legal and administrative actions.

       b. Develop input for the annual Defense Operation and Maintenance budget
estimate submission for all future conferences, including a request for sufficient
reimbursable authority to collect fees from participants. Before incurring expenses,
ensure that program managers obligate all anticipated expenses related to DOD
personnel required to support the Joint Civilian Orientation Conference.

Assistant Secretary of Defense (Public Affairs) Comments
The Principal Deputy ASD(PA) agreed and stated that his office would take appropriate
actions for any improprieties identified as a result of the preliminary review of the use of
JCOC fees. He also stated that beginning with JCOC 79 his office would fully fund the
conferences and not use participant fees.




                                              17 

Our Response
The comments of the Principal Deputy were partially responsive. The decision to fund
conference activities of non-DOD participants using DOD appropriated funds may pose
legal challenges over the proper use of appropriated funds and does not provide the
flexibility granted by Congress to collect fees to defray the conference costs and provide a
cost savings to the taxpayer. We request that the ASD(PA) seek a fiscal law review
regarding the use of appropriated funds, reconsider his position, and provide additional
comments on the final report addressing how his office will implement the provisions of
10 U.S.C. 2262 and properly budget and obligate for future conferences.




                                             18 

Finding B. Use of Official Representation
Funds
The Director of Administration and Management did not ensure that the WHS Financial
Management Directorate provided proper oversight and administration of the JCOC
program’s use of ORF. This occurred because the WHS fund manager did not properly
apply DOD Directive 7250.13 to JCOC activities, and the directive did not require a legal
review of planned ORF uses. As a result, the ASD(PA) inappropriately used $20,249 in
ORF to pay for unqualified expenses.

Official Representation Funds
According to 10 U.S.C. 127, an Emergency and Extraordinary Expenses Fund within the
Operation and Maintenance appropriations of the Secretary of Defense, DOD Inspector
General, and Secretary of each Military Department allows for the payment of emergency
or extraordinary expenses they cannot anticipate or classify. Within the Emergency and
Extraordinary Expenses Fund is a subclassification that provides for establishing ORF.

Under certain circumstances, DOD Directive 7250.13 allows DOD organizations to use
ORF to pay for DOD employee expenses when extending official courtesies to guests
authorized by the directive. To use ORF, DOD Directive 7250.13 requires that for parties
of 30 or more, such as a JCOC conference, the authorized guests should make up a
minimum of 50 percent of the invitees. The directive defines authorized guests to be either
foreign dignitaries or U.S. citizens such as Federal, State, and local dignitaries; members of
citizens’ committees; other distinguished or prominent citizens who have made a
substantial contribution to the DOD or the nation; and members of the news media on
certain occasions. The directive requires that the Director of Administration and
Management approve ORF expenditures valued at less than $50,000 made by the
components of the OSD. The directive also requires the verification of fund availability
before the use of ORF. Once the Director of Administration and Management approves the
use of ORF, the fund manager assigned to the WHS Financial Management Directorate
appoints a paying agent to use ORF, as authorized by DOD Directive 7250.13.

Oversight and Administration of ORF
The Director of Administration and Management did not ensure that the WHS fund
manager had validated that JCOC program managers requested and properly used ORF for
authorized purposes. The JCOC program managers failed to meet the requirements
established in DOD Directive 7250.13 for justifying the use of ORF. They did not provide,
and the fund manager did not require, sufficient information to explain why the program
managers needed ORF to support JCOC activities. For JCOCs 72 and 73, none of the
requests made by the ASD(PA) contained information that the WHS fund manager could
use to support that the program managers planned to extend official courtesies to a
sufficient number of authorized guests to justify the use of the fund. The supporting
documentation approving the use of ORF showed that the Director of Administration and


                                             19 

Management did not approve the use of ORF for JCOCs 72 and 73 until 2 to 3 months after
the conferences had occurred. Consequently, the WHS fund manager did not appoint the
treasurer as a paying agent until receiving that approval and did not provide funds until
after the events had occurred. For JCOC 74, the program manager requested ORF before
the conference, but significantly increased the requested amount without justifying the
reasons for the increase.

Criteria for Using ORF
Before permitting the use of ORF, neither the Director of Administration and Management
nor the WHS fund manager ensured that the intended purpose for using the fund met the
criteria of DOD Directive 7250.13. The ASD(PA) requests for using ORF for
JCOCs 72, 73, and 74 did not contain sufficient data to support a decision on the use of
funds. Specifically, each of the requests did not contain the details needed to demonstrate
that the JCOC program managers planned to extend official courtesies to qualified
individuals and that payment of any expenses for DOD personnel to attend these functions
met the appropriate criteria. In addition, because the JCOC program has been in existence
since 1948, a justification to use ORF should have included a determination that program
expenses were an emergency or extraordinary expense that the program manager could not
anticipate and classify under an existing appropriation. OASD(PA) personnel informed us
that during the nomination process, the JCOC program managers considered whether
prospective participants met the criteria to qualify as authorized guests to whom they could
extend official courtesies. However, the program managers did not consider the impact of
the participants paying their own expenses. When participants pay their own expenses they
are not considered authorized guests. Without authorized guests, the program manager
cannot justify paying for DOD personnel to attend JCOC activities. We determined that
the JCOC program managers were not hosting the participants or providing them official
courtesies. Consequently, none of the expenses qualified for the use of ORF.

For example, on October 17, 2006, the JCOC staff held a dinner and reception in Bahrain.
Supporting documentation showed that 85 individuals attended the JCOC 72 event:
45 participants, 16 staff members, and 24 local DOD personnel that the program manager
invited to have dinner with the participants. The 24 DOD personnel did not qualify as
either escorts or authorized guests, and the program manager should not have paid their
expenses using the fund. If the program manager required these individuals to attend this
function, she should have budgeted for the cost of their attendance as part of the normal
appropriation process. The treasurer used $1,471.68 from ORF to pay for the 24 DOD
personnel attending this dinner. Because the program manager was not extending official
courtesies to any of the participants, the use of the fund solely to defray the costs of DOD
personnel attending the function was inappropriate. According to DOD Directive 7250.13,
DOD cannot consider its employees authorized guests. Consequently, the event did not
qualify for the use of ORF, and the 24 DOD personnel who attended the dinner should have
paid for their respective portions of the dinner and reception. In total, program managers
inappropriately spent $10,271 of ORF to pay for DOD personnel attending JCOC 72 and
73 events.




                                            20 

The Director of Administration and Management should not have approved the use of ORF
to pay for DOD personnel attending the function without first validating whether a
sufficient number of JCOC participants qualified as authorized guests and that the
ASD(PA) was extending them official courtesies by paying for the meals and
entertainment. Our review showed that the OASD(PA) could have covered the cost
associated with DOD personnel attending JCOC events under its normal Operation and
Maintenance appropriation because the program held at least one conference annually, and
JCOC program managers had information available to estimate expenses as part of their
request for appropriated funding. DOD Directive 7250.13 does not require that the Office
of DOD General Counsel review the appropriateness of each use of the fund before
granting approval. However, considering the uniqueness of the JCOC program, it would be
prudent to have legal counsel review all planned uses of ORF in support of the JCOC
program. The legal review should consider the nature of the JCOC events, what constitutes
proof that someone qualifies as an authorized guest, and the plan to pay for the meal and
entertainment costs. The Director of Administration and Management should update DOD
Directive 7250.13 to require a legal review of all planned uses of ORF in support of the
JCOC program. This review would ensure that ORF expenses meet the requirements of
10 U.S.C. 127.

Approval and Use of ORF for JCOCs 72 and 73
JCOC program managers did not obtain the required approval to use ORF before incurring
expenses related to JCOCs 72 and 73. Although the ASD(PA) signed a funding request in
advance of the two conferences, JCOC program managers did not receive approval to use
the fund from the Director of Administration and Management until months after the
conferences had concluded. As a result, the program managers inappropriately incurred
$10,272 in expenses that the Government reimbursed after the fact for the program
managers’ use of conference fees to pay for DOD employees attending JCOC activities.
The program managers should have first verified whether they could use appropriated
funds to pay these expenses and then ensured the correct funding authorization and
availability. If the OASD(PA) cannot fund these costs with Defense Operation and
Maintenance funds, the ASD(PA) may have incurred an Antideficiency Act violation.

JCOC 72
On February 1, 2007, the Director of Administration and Management approved the use of
ORF to pay for JCOC 72 events, which took place in October 2006. After the Director
approved the request, the fund manager appointed the treasurer as a paying agent to the
Director, Disbursing Operations Directorate, Defense Finance and Accounting Service.
Once officially appointed, the treasurer processed the supporting documentation for the
expenditures he had previously made using the conference fees. He processed a
$6,928 public voucher to cover the meals for DOD personnel at six conference activities
and for hotel rooms in Arlington, Virginia, that DOD personnel used before the arrival of
conference participants. That same day, the fund manager certified the payment and had
the Disbursing Operations Directorate pay the treasurer a U.S. Treasury check for that
amount. The treasurer subsequently deposited the check into the JCOC bank account.




                                           21 

JCOC 73
On July 16, 2007, nearly 3 months after JCOC 73 occurred, the Deputy Director of
Administration and Management approved the request to use ORF. On July 17, 2007, the
fund manager appointed the treasurer as the paying agent. The treasurer then requested a
$3,344 U.S. Treasury check to replace the conference fees he used during JCOC 73. The
fund manager certified the payment, and the Defense Finance and Accounting Service paid
the treasurer. The treasurer subsequently deposited the check in the JCOC bank account.
Besides certifying payments for expenditures made before granting approval to use the
fund, the fund manager also inappropriately reimbursed the treasurer to replenish the JCOC
bank account. As discussed in Finding A, the JCOC program had no legal authority to
retain funds outside the U.S. Treasury in a JCOC bank account. Consequently, no
requirement existed to reimburse the JCOC bank account.

Approval and Use of ORF for JCOC 74
The ASD(PA) requested approval for the use of ORF on October 26, 2007, 10 days before
the start of JCOC 74. On October 29, 2007, the fund manager appointed the treasurer as
the paying agent. The appointment letter required the treasurer to use the funds to pay for
conference expenses, such as social events and official gifts, for which vendors would not
accept a credit card. The ASD(PA) increased the JCOC 74 request for ORF to $18,050,
although he had previously requested only $10,000 for JCOC 72 and $7,000 for JCOC 73.
On October 29, 2007, the Director of Administration and Management approved the
request, and the treasurer received an appointment as a paying agent. The fund manager
approved an $18,050 cash advance, which the treasurer deposited in his personal bank
account. During the conference, the treasurer made 13 purchases, valued at $9,997, which
he later paid for with the advance. The disbursements covered the costs associated with
feeding and entertaining DOD employees at social events and the musicians that provided
entertainment at JCOC 74 events.

In violation of the agreement in his appointment letter, the treasurer charged 9 of the
13 transactions, valued at $7,690, to a Government credit card. The treasurer paid this
credit card bill using the cash advanced to him. The treasurer repaid the remaining
$8,053 balance ($18,050 less $9,997) to the U.S. Treasury on January 15, 2008,
approximately 2 months after completing the conference. The program manager should
have ensured that the treasurer reconciled and returned any unused ORF immediately upon
returning from the conference, not 2 months later. The program manager should have
anticipated the need to budget for the nearly $10,000 in JCOC 74 related expenses as part
of the OASD(PA) annual budget submission for conducting the conference and used the
Defense Operation and Maintenance appropriation to pay for them. In addition, the
program manager should have included these expenses on the contract used to provide
conference planning services during JCOC 74 (see Finding C). The use of ORF during
future conferences may not be appropriate or necessary.

Management Actions
In April 2008, WHS contracted for a study of the ORF review and approval process. The
results of the study support the need to process ORF requests 2 weeks in advance of an



                                            22 

event and makes the fund manager responsible for the request’s completeness and
compliance with 10 U.S.C. 127. The study also verified the need for the appointment of a
paying agent and the reconciliation of any cash advance provided to that agent. The WHS
Financial Management Directorate is using the study to assist the Director of
Administration and Management in updating the requirements in DOD Directive 7250.13.

Conclusion
The use of the $20,249 in ORF for JCOCs 72, 73, and 74 raised significant questions
regarding DOD’s compliance with the requirements of 10 U.S.C. 127. Our review of
JCOCs 72, 73, and 74 showed that the Director of Administration and Management did not
require proper justification from the ASD(PA) for using ORF and did not always approve
the use of the fund before JCOC program managers incurred expenses. The Director also
allowed the fund manager to provide advances and approve expenditures from the fund
after the fact. In addition, the fund manager did not ensure that the paying agent returned
unused funds within a reasonable number of days after the conference. Consequently, we
question the appropriateness of using ORF for JCOC events. The JCOC is an ongoing
program and the expenses incurred to conduct the conference did not meet the definition of
either an emergency or extraordinary expense. The JCOC program manager should have
been able to anticipate the program expenses discussed in this finding and classified them
as part of the normal use of the Defense Operation and Maintenance appropriation.

Considering the issues that we found, the Director of Administration and Management
should have the WHS Financial Management Directorate work with the Offices of the
Under Secretary of Defense (Comptroller) and DOD General Counsel to review the use of
ORF, especially for ongoing programs like JCOC, which should include these expenses as
part of their normal budget submission. They should determine whether the use of ORF to
pay for anticipated JCOC program expenses meets the legal requirements of 10 U.S.C. 127.
They should also determine whether it is necessary to continue to use ORF to fund
expenses for ongoing DOD programs and whether the use of the JCOC 74 cash advance
inappropriately benefitted the contractor. In addition, the Director should update DOD
Directive 7250.13 to require a legal review of planned uses of ORF and provide DOD
personnel responsible for using ORF with proper training on the legal requirements for
administering and using the fund. Based on the determination of the legality of using ORF
to pay for JCOC expenses, the ASD(PA) should work with the Office of the Under
Secretary of Defense (Comptroller) to initiate a preliminary review into the potential
misuse of appropriated funds. As part of the review, they should determine whether it was
legal to use Defense Operation and Maintenance funds for the expenses incurred and, if so,
whether sufficient funds were available in the appropriation to cover the improper use of
ORF. Following the preliminary review, they should coordinate the report with the DOD
General Counsel and report their findings to OSD.




                                            23 

Recommendations, Management Comments, and
Our Response
Redirected Recommendation
Based on management comments received from the Deputy Chief Financial Officer, we
redirected the primary responsibility for Recommendation B.3 to the Director, WHS,
because WHS serves as the fundholder for the OASD(PA).

B.1. We recommend that the Director of Administration and Management update
DOD Directive 7250.13 to require a legal review of all planned uses of Official
Representation Funds in support of the Joint Civilian Orientation Conference
program, and provide DOD personnel with proper training on the legal
requirements for administering and using Official Representation Funds.

Administration and Management, OSD Comments
The Acting Director of Administration and Management disagreed and stated that WHS
staff followed applicable Federal laws and regulations and that a review of requirements
by the Office of General Counsel was not warranted. He also stated that WHS provided
us documentation on how they have updated the ORF approval process on April 10, 2009.

Our Response
As noted in the Management Actions section, we had received and reviewed the
documentation provided in April 2009. However, at the time of the draft report, DOD had
not incorporated these procedures into DOD Directive 7250.13. On June 30, 2009, the
Director of Administration and Management replaced the old directive with DOD
Instruction 7250.13. The new instruction incorporated some of the requirements
contained in the documentation but did not require a legal review of requests to ensure
compliance with 10 U.S.C. 127. We still believe that a legal review similar to what the
Department of Army requires is a prudent control to ensure compliance. Army
Regulation 37-47, “Representation Funds of the Secretary of the Army,” March 2004,
requires a legal review for requests by type, nature, or exception that have no prior legal
opinion of precedence. We request that the Acting Director reconsider his position on
including a legal review in the approval process and provide comments on the final report.

B.2. We recommend that the Director of Administration and Management direct the
Washington Headquarters Services, Financial Management Directorate, to work
with the Offices of the Under Secretary of Defense (Comptroller) and DOD General
Counsel to:

       a. conduct a review to determine whether the use of Official Representation
Funds by ongoing programs, such as the Joint Civilian Orientation Conference, meet
the legal requirements of section 127, title 10, United States Code;




                                            24 

      b. determine whether the Joint Civilian Orientation Conference program
misused the funds and violated public law; and

      c. determine whether DOD personnel or the conference planner
inappropriately benefited from the Joint Civilian Orientation Conference 74 cash
advance.

Administration and Management, OSD Comments
The Acting Director of Administration and Management disagreed and stated that a
separate review of ORF for compliance with 10 U.S.C. 127 was outside our audit scope.
He also disagreed with our findings and recommendation regarding the treasurer
depositing $18,050 in the treasurer’s personal bank account. He stated that we did not
request any supporting documentation related to the matter and needed to verify our
results and consider the materiality of the impact of the interest that may have accrued.
He also disagreed with the need for determining whether DOD personnel or the
conference planner inappropriately benefited from the advance. He stated that we did not
obtain adequate evidence to justify what type of Government credit card the JCOC
program manager used to pay expenses. He also stated that a reconciliation of the ORF
account would have determined that DOD had overpaid the contractor by $1,064.

Our Response
The intent of the recommendation was to determine whether the use of ORF by JCOC
program managers was appropriate and complied with fiscal law. We concluded that the
use of ORF by JCOC program managers to fund ongoing conference activities was not
appropriate and violated the purpose of 10 U.S.C. 127. The fact that WHS personnel
allowed this to happen raises the question of whether proper scrutiny of the 10 U.S.C. 127
requirements occurs before approving the use of the fund. We do not believe the JCOC
treasurer intended to seek personal gain from the cash advance. However, we reported the
deposit of the cash advance to a personal bank account to highlight a breakdown in
controls. The JCOC treasurer should have been required to deposit the cash advance in a
noninterest bearing account that did not commingle these funds with his own and should
have returned the unused advance immediately upon returning from the conference. DOD
Financial Management Regulation, volume 5, chapter 3, “Keeping and Safeguarding
Public Funds,” October 2006, states that a paying agent may neither commingle funds
advanced to them with any other funds nor advance them to any other person. When
circumstances require a paying agent to retain funds overnight, the agent must return the
paid vouchers, negotiable instruments, and balance of funds as soon as possible after
making the authorized payments, normally within 24 hours.

To clarify our intent, we removed any wording implying personal benefit by the treasurer.
We did not question whether the credit card was a personal Government credit card or
Government travel card. The finding questioned the appropriateness of using the cash
advanced from the ORF to pay for charges made against a Government credit card. The
appointment letter of the cash agent specifically prohibited the use of the cash to pay for
items that the JCOC program could have charged to a Government credit card. Since the
JCOC treasurer procured items using a Government credit card, the JCOC program


                                            25 

manager should have paid for those items using the normal payment process for the
Government credit card program and not by using the funds advanced from ORF.

We collected sufficient documentation to support our conclusions regarding the use of
ORF for JCOCs 72, 73, and 74. This documentation included all of the request letters,
deposit slips and checks written from both the JCOC account and the treasurer’s bank
account, the invoices paid, and settlement vouchers. Our review showed that the ORF
advances for JCOCs 72, 73, and 74 had been reconciled and settled, but the settlement
review had not determined that the JCOC program manager overpaid the contractor by
$1,064. We discovered the overpayment and it was resolved only after we brought it to
management’s attention. We request that the Director of Administration and
Management, reconsider his position on whether the use of ORF to fund activities related
to ongoing DOD programs, such as JCOC, should continue to occur and provide
additional comments on the final report.

B.3. We recommend that the Director, Washington Headquarters Services, in
coordination with the Assistant Secretary of Defense (Public Affairs) and Under
Secretary of Defense (Comptroller)/Chief Financial Officer, initiate a preliminary
review into the potential misuse of appropriated funds if it is deemed appropriate
based on the actions taken in response to Recommendation B.2. As part of the
review, they should determine whether it was legal to use Defense Operation and
Maintenance funds for the expenses incurred and, if so, whether sufficient funds
were available in the appropriation to cover the improper use of Official
Representation Funds. Following the preliminary review, they should coordinate the
report with the DOD General Counsel and report their findings to the Office of
Secretary of Defense.

Under Secretary of Defense (Comptroller) Comments
The Deputy Chief Financial Officer partially agreed and stated that he agreed with the
need to conduct a preliminary Antideficiency Act review. However, he stated that we
should specifically address the recommendation to the Director, WHS, who is the actual
fundholder. He further stated that he would request that the Director, WHS, conduct a
preliminary investigation, complete it within 90 days, and provide the results to the
USD(C)/CFO.

Assistant Secretary of Defense (Public Affairs) Comments
The Principal Deputy ASD(PA) agreed with the Deputy Chief Financial Officer that we
direct the responsibility for initiating the review to the Director, WHS.

Our Response
The Deputy Chief Financial Officer’s and the Principal Deputy’s comments were
responsive. Although we have redirected primary responsibility for conducting a review
to the Director, WHS, the OASD(PA) should continue to assist WHS in reviewing the
past conference practices to determine the nature and extent of any violations. We request
that the Director, WHS, provide comments on the final report.



                                           26 

Finding C. Conducting the Program Under
DOD Conference Law
The JCOC program manager and WHS contracting officer did not demonstrate effective
planning and proper contracting actions when obtaining a conference planner for
JCOC 74. These individuals did not properly issue delivery orders with funding from the
OASD(PA) Defense Operation and Maintenance allotment and did not ensure that the
contractor properly submitted invoices for services provided. Additionally, the JCOC
program manager and WHS contracting officer did not ensure that the payment of
participant costs using the conference fees collected complied with the requirements of
10 U.S.C. 2262. This occurred because DOD policy managers had not issued financial
guidance to help DOD Components implement the provisions of 10 U.S.C. 2262. In
addition, the program manager did not request Defense Operation and Maintenance funds
to pay for JCOC 74 conference planning costs or provide a complete statement of work to
the contracting officer detailing the FY 2007 and FY 2008 requirements. As a result, the
JCOC program manager potentially violated 31 U.S.C. 1502(a) (known as the Bona Fide
Needs Rule) and 31 U.S.C. 1341(a) (Antideficiency Act) by incorrectly expending
$97,308 in Defense-appropriated funds allocated to AFIS to support JCOC 74. In
addition, the program manager failed to reconcile the $91,429 in unexpended program
funds to determine how much to return to two AFIS Defense Operation and Maintenance
allotments and how much to deposit in the U.S. Treasury as miscellaneous receipts.

Legal Authority to Collect and Use Conference Fees
The Secretary of Defense has the legal authority provided in 10 U.S.C. 2262 to collect in
advance, either directly or by using a contract, fees from any individual or commercial
participant attending a DOD conference. The provisions of 10 U.S.C. 2262 required
DOD Components using this authority to credit the fees collected to the appropriation or
account from which they would pay the conference costs. This made the fees collected
available to the DOD Component to pay the direct costs associated with participants
attending the conference or to reimburse the DOD Component for the direct or indirect
costs incurred to conduct the conference. In the event that the total amount of conference
fees collected exceeds the conference costs, the DOD Component must deposit the excess
with the U.S. Treasury as miscellaneous receipts.

Basic Contract
The WHS Acquisition and Procurement Directorate issued contract number
HQ0034-06-D-1007 (an indefinite-delivery, indefinite-quantity contract) to a single
contractor for conference and event planning support to the Defense Prisoner of
War/Missing Personnel Office and to other OSD and WHS organizations. The basic
contract contained a contract line item number (CLIN) for each of three 1-year
performance periods that required the contractor to provide and perform conference




                                           27 

planning services in accordance with the statement of work. 11 According to the contract,
the contracting officer was to issue a minimum of one delivery order for each period of
performance. The contract also required that each delivery order issued against the basic
contract specify information such as a contracting officer representative (COR), period of
performance, and inspection and acceptance requirements.

The OASD(PA) used this contract to hire the conference planner for JCOC 74. In
support of OASD(PA), the WHS contracting office issued two delivery orders (delivery
orders 0010 and 0011). Table 2 shows pertinent information about the delivery orders
issued to support JCOC 74.

                             Table 2. Delivery Order Information
                                                                                                     Fiscal
Delivery                     Service                 Funding                            CLIN         Year
 Order         CLIN         Provided                  Source              Amount        Type        Funding
                                                                                       Firm
                          Conference         AFIS Allotment                            Fixed
     0010      0002       Planning           9770100.4101                 $26,512      Price          2007
                          Other Direct       AFIS
                          and Travel         Allotment
     0010      0004       Costs              9770100.4101                   54,160     Cost           2007
                          Conference                                                   Firm
                          Planning           AFIS Allotment                            Fixed
     0011      0002       JCOC Staff         9780100.4101                   16,636     Price          2008
                                             Public Affairs
                                             Reimbursable
                          Conference         Account for                               Firm
                          Planning           Conference Fees                           Fixed
     0011      0003       Participants       9780100.1120.9301              76,933     Price          2008

Providing JCOC Contract Support
The JCOC program manager and the WHS contracting officer did not adequately plan
and contract for the use of a conference planner to support JCOC 74. Specifically:

      		 the program manager did not adequately identify the correct funding for the
          contract or provide defined requirements for the statement of work,




11
  The contract contained a CLIN for each of three 1-year performance periods. The contracting officer 

should have used CLIN 0001 for delivery orders issued during the base year (August 25, 2006, through 

August 24, 2007), CLIN 0002 for delivery orders in the first option year (August 25, 2007, through 

August 24, 2008), and CLIN 0003 for delivery orders issued in the second option year (August 25, 2008, 

through August 24, 2009). 



                                                   28 

     		 the contracting officer did not issue appropriate delivery orders or appoint a COR,

     		 the program manager and contracting officer did not ensure that the contractor
         invoiced services to the correct CLIN, and

     		 the program manager did not reconcile and deposit excess conference fees in the
         U.S. Treasury as miscellaneous receipts in a timely manner.

JCOC 74 Contract Funding
The JCOC program manager inappropriately funded the delivery orders using AFIS
allotments within the FY 2007 and FY 2008 Defense Operation and Maintenance
appropriations. 12 This occurred because the program manager had not requested funding
as part of the OASD(PA) submission to the OSD allotment (97X0100.1120) to pay for
DOD costs associated with conducting JCOC 74 or requested the reimbursable authority
needed to collect the $129,000 in conference fees collected into a reimbursable
account (9780100.1120.9301) to comply with 10 U.S.C. 2262. As discussed in
Finding A, the budget should have taken into account the amount of conference fees the
program manager planned to collect from non-DOD participants and the amount of
additional appropriated funding needed to support the attendance of DOD personnel at
JCOC activities, as well as any other costs in support of JCOC 74. The program
managers could then have used the fees to pay conference costs.

Instead, the program manager inappropriately provided the WHS contracting officer with
$97,308 from two AFIS Defense Operation and Maintenance allotments (9770100.4101
and 9780100.4101) to fund a majority of the delivery orders. Because the AFIS budget
submissions and the corresponding funding allotments did not provide funding to support
JCOC 74 activities, the use of these funds inappropriately augmented the funding
provided to the OASD(PA) to administer the JCOC program. The program manager had
also allowed the treasurer to collect the JCOC 74 conference fees and deposit the fees in a
newly established Public Affairs reimbursable account (9780100.1120.9301). The
program manager then used $76,933 from the Public Affairs reimbursable account to
fund delivery order 0011, CLIN 003. To comply with 10 U.S.C. 2262, the program
manager should have either deposited these funds into the OASD(PA) allotment and used
that allotment to pay for the contract or ensured that the collected funds reimbursed the
OASD(PA) allotment. The ASD(PA) and Director, WHS, should initiate a preliminary
review into whether the use of the AFIS allotments inappropriately augmented the
OASD(PA)-appropriated funds.

Defining Statement of Work Requirements
The delivery orders issued to support JCOC 74 potentially violated the Bona Fide Needs
Rule. The rule provides that the balance of a fixed-term appropriation is available only
for payment of expenses properly incurred during the period of availability or to


12
  As stated earlier, in December 2007, DOD Directive 5105.74 established the Defense Media Activity and
disestablished AFIS as the OASD(PA) field activity.


                                                  29 

complete contracts properly made within that period. The WHS contracting officer
informed us that attempting to write the delivery orders supporting JCOC 74 became
difficult because the JCOC program manager had never used a contract to support JCOC
activities and could not clearly define the requirements to support such a complex
conference. The program manager funded delivery order 0010 with an FY 2007 AFIS
allotment. The contracting officer issued the delivery order 0010 on September 28, 2007.
However, the statement of work provided to the contracting officer did not clearly
explain which conference planning and administration requirements met an FY 2007
bona fide need. The statement of work required the conference planner to obtain bids
from hotels on the best rates for up to 70 attendees. The statement of work should have
clearly identified what the program manager required in FY 2007, and the contracting
officer should have limited delivery order 0010 solely to those requirements. The
contracting officer should have contracted the remaining severable requirements in
FY 2008 using delivery order 0011. 13 The WHS contracting officer explained that
conference planning work had started in FY 2007, which made the contracting officer
believe that the use of FY 2007 funding was acceptable. However, neither the WHS
contracting officer nor the JCOC program manager could provide any supporting
documentation to show that the contractor needed to perform work in FY 2007.

Additionally, the WHS contracting officer stated that because the FY 2007 appropriation
was for a service contract, it allowed the contract to cross fiscal years. According to the
Federal Acquisition Regulation, part 32.703-3, “Contracts Crossing Fiscal Years,”
March 2005, a contract funded by annual appropriations may not cross fiscal years,
except in accordance with statutory authorization or when the contract calls for a product
that cannot feasibly be subdivided for separate performance in each fiscal year. Because
JCOC 74 occurred in November 2007, the program manager should have provided the
WHS contracting officer with detailed requirements that the contracting officer could
have used to segregate any requirements to meet a bona fide need in FY 2007. With the
FY 2007 requirements isolated, the WHS contracting officer could issue a delivery order
to meet a bona fide need after September 30, 2007. (In the next section, we discuss the
work requirements for delivery orders 0010 and 0011.) The program manager should
then have provided sufficient FY 2007 and FY 2008 funding from the OASD(PA)
allotment of the Defense Operation and Maintenance appropriation. The ASD(PA) and
Director, WHS, need to conduct a preliminary review into the use of FY 2007 funding to
support JCOC 74 to determine whether a potential violation of 31 U.S.C. 1502(a)
occurred.

JCOC 74 Delivery Orders
The JCOC program manager did not provide the WHS contracting office with a complete
description of the requirements for supporting JCOC 74, which would have allowed the
contracting officer to prepare a detailed request for proposal. Upon receipt of a request
for proposal for each delivery order, the contractor was supposed to provide a


13
  Severable contract costs are the tasks that can logically and reasonably be broken into smaller
increments.


                                                     30 

firm-fixed-price quote based on the labor rates in the contract. 14 However, the
incomplete requirement in the statement of work hindered the contracting officer’s ability
to obtain accurate firm-fixed-price quotes for the delivery orders. In addition, two
delivery orders did not correctly cite the CLIN structure established in the basic contract
or identify which delivery order would pay for each item specified in the statement of
work. Further, the contracting officer inappropriately issued delivery orders against
CLIN 0003.

Delivery Order 0010
The program manager and WHS contracting office did not clearly define in the statement
of work which requirements the contractor should accomplish using delivery order 0010.
The contracting officer issued the delivery order on September 28, 2007, for $80,672 to
provide services in accordance with the JCOC 74 statement of work. Delivery
order 0010 contained two CLINs funded by the FY 2007 AFIS allotment. CLIN 0002
required the contractor to provide and perform conference planning services in
accordance with the statement of work. The delivery order contained general
requirements for the contractor to enter into contracts with hotels and vendors and
provide meals and transportation to JCOC participants, staff, and other DOD personnel
attending conference activities. However, it did not define what portions of the statement
of work each CLIN was to cover. In addition, because most of the requirements
contained in the statement of work would not actually occur until November 2007, the
work the contractor needed to perform in FY 2007 under this CLIN should have been
limited.

Also, in FY 2007, the contracting officer and the program manager incorrectly
established and funded CLIN 0004, a cost-CLIN for $54,160, to reimburse the contractor
for other direct and travel costs. 15 A review of the basic contract showed that although
the contract and delivery order allowed for these costs, the basic contract had not
established CLIN 0004. Even if the basic contract had established a CLIN 0004, the
contracting officer should have only included CLIN 0004 on delivery order 0011,
because the contractor’s travel costs to be on site at the conference would not occur until
November 2007. There was no requirement for the contractor to travel during FY 2007.
In addition, the contracting officer had incorrectly included the cost of hotels, meals, and
mementos in CLIN 0004. These requirements should be part of the firm-fixed-price
CLIN established to pay for participant costs in delivery order 0011.

Delivery Order 0011
The contracting officer established the wrong CLINs on delivery order 0011 and did not
clearly define which requirements from the statement of work the contractor should have
invoiced to each CLIN. On October 30, 2007, the program manager issued delivery


14
   A firm-fixed-price CLIN should reflect the amount paid to the contractor to execute the contract in
accordance with the statement of work, which places the risk and requirement for paying outside vendors
on the contractor.
15
   The contracting office uses a cost-CLIN to pay for costs that cannot be easily established at the inception
of the contract.


                                                     31 

order 0011 for $93,569 using the original statement of work, which the contracting
officer had updated to specify which hotel and meals the contractor needed to provide
and to include the purchase of mementos for the JCOC participants. The contracting
officer did not comply with the basic contract CLIN structure and incorrectly established
CLINs 0002 and 0003 to fund conference support services detailed in the statement of
work. To comply with 10 U.S.C. 2262, the contracting officer should have established
only a single firm-fixed-price for CLIN 0002 to support JCOC 74 using the FY 2008
OASD(PA) Defense Operation and Maintenance allotment. However, because the
program manager did not fund the delivery orders correctly or provide detailed
requirements in the statement of work, the contracting officer established the two CLINs
in delivery order 0011 to attempt to track program costs. The contracting officer
established CLIN 0002, a firm-fixed-price CLIN for $16,636, using the FY 2008 AFIS
allotment to fund the costs associated with the JCOC staff’s participation at the
conference. The contracting officer also established CLIN 0003, a firm-fixed-price CLIN
for $76,933, using the Public Affairs reimbursable account containing the conference fees
collected to pay all JCOC participant costs. However, the contracting office should not
have used CLIN 0003 in delivery order 0011, because the basic contract established it to
provide conference planning services for conferences occurring after August 24, 2008.

In addition, the CLIN structure established in delivery order 0011 did not ensure that the
contractor would invoice all participant costs incurred to CLIN 0003 because the
statement of work provided by the program manager did not specify which requirements
needed to be included in the firm-fixed-price quote for CLIN 0003. Consequently, the
program manager had only limited assurance that the Defense Finance and Accounting
Service would make invoice payments using the conference fees, as required by
10 U.S.C. 2262.

Invoice Payments
Issuing two separate delivery orders to fund a very similar statement of work also
complicated how the contractor would submit invoices for payment for services provided
and resulted in the payment of expenses using the incorrect funds. In addition, the WHS
contracting officer did not appoint a knowledgeable individual from the JCOC staff to
serve as COR for either of the two delivery orders. This hindered the program manager’s
efforts to ensure that the contractor had allocated costs to the correct CLINs and that the
contracting office would reject invoices that billed costs to the wrong CLINs. The review
of invoices by an unknowledgeable JCOC staff member failed to detect that the
contractor billed for services on the delivery order and a $1,064 duplicate payment.
Further, the contracting officer and program manager allowed the contractor to bill all
costs to delivery order 0010 until the depletion of the funds on the delivery order. Table
3 lists the five invoices paid on delivery order 0010.




                                            32 

                Table 3. Invoices Paid on Delivery Order 0010
                   Date Accepted by
 Invoice Number       Contracting              CLIN                           Amount
10111356          October 16, 2007              0002                          $ 5,500
10218313          October 24, 2007              0002                            6,000
11130627          November 27, 2007             0002                           15,012
10218312          October 24, 2007              0004                           51,068
11160727          November 27, 2007             0004                            3,092
Total                                                                         $80,672

We reviewed each invoice submitted by the contractor for JCOC 74 to determine whether
the program manager maintained proper fund controls. After reviewing the
documentation for the invoices submitted on delivery order 0010, CLIN 0002, we
determined that the invoiced services appeared to be necessary for planning JCOC 74.
However, the contractor submitted one of the two invoices against delivery order 0010,
CLIN 0004, that the program manager had funded on delivery order 0011. The
contractor described the items and services paid for with invoice number 10218312 as
follows:

      $13,421 for various mementos purchased for JCOC 74 activities,
      $5,016 for dinner at the Star of Honolulu on November 4, 2007,
      $16,465 for a deposit on rooms at the Royal Hawaiian, and
      $16,167 for a deposit on food and beverages at the Royal Hawaiian.

According to delivery order 0010, CLIN 0004 was for the contractor’s other direct and
reimbursable travel costs, in accordance with the DOD Joint Travel Regulation. The
items billed on this invoice were hotel and dinner costs related to the conference and the
purchase of participant mementos, which the program manager should have funded as
part of the firm-fixed-price established for delivery order 0011, CLIN 0003. Therefore,
the contracting officer should have rejected this invoice and required the contractor to bill
these items to delivery order 0011. Invoice number 11160727 correctly charged the
contractor’s travel expenses to CLIN 0004.

The treasurer also may have made a duplicate payment of $1,064 to the contractor for
dinner costs at the Star of Honolulu restaurant on November 4, 2007. The documentation
the treasurer gave us to support payments from ORF included a copy of a Star of
Honolulu invoice that showed that the contractor paid $5,016 for 66 meals at $76 per
meal. The total bill matched the amount the contractor had requested payment for on
invoice number 10218312. Using the copied invoice as a receipt, on December 11, 2007,
the treasurer wrote a $1,064 check using ORF to reimburse the contractor for 14 local
guests who attended the dinner. The contractor had not invoiced the JCOC program for
the additional payment because the contractor had already received reimbursement for
the meal costs for the 14 guests as part of the original $5,016 bill. The treasurer made the
duplicate payment to the contractor because of inadequate fund controls within the JCOC


                                             33 

program and failure by the contracting officer to appoint a COR for the delivery orders.
The treasurer also used ORF to reimburse the contractor for an additional nine events
(totaling $7,582) that the program manager should have identified as part of the
firm-fixed-price established in the delivery orders. The contracting officer and program
managers should reconcile the payments made to the contractor using ORF to ensure that
the Government did not overpay the contractor for the services. The Director, WHS,
should ensure that the contracting office appoints a COR on all future delivery orders and
ensure that the contractor bills expenses to the correct delivery orders and CLINs.

The two CLINs on delivery order 0011 had a firm-fixed-price of $93,569. On delivery
order 0011, the contractor submitted invoice number 11307589 for only $54,207 (the
contractor billed $16,636 to CLIN 0002 and $37,572 to CLIN 0003). The contracting
officer did not pay the remaining $39,361 on CLIN 0003 because the contracting officer
allowed the contractor to bill participant-related costs to delivery order 0010 that the
contractor should have billed as part of the firm-fixed-price of delivery order 0011,
CLIN 0003.

Excess Conference Fees
The JCOC program manager had not promptly reconciled the $208,308 in JCOC 74
funding available for obligation on the delivery orders to the $134,879 paid on those
delivery orders. 16 This prevented the program manager from determining how much of
the remaining $73,429 the program manager needed to deposit in the U.S. Treasury and
how much to return to AFIS. According to 10 U.S.C. 2262, DOD must deposit any
excess conference fees in the U.S. Treasury as a miscellaneous receipt. Although the
JCOC program manager collected $111,000 in conference fees that that the program
manager could have used to fund the participant expenses on the contract, the program
manager obligated only $76,933 on delivery order 0011, CLIN 0003. CLIN 0003 should
have reflected a total firm-fixed-price for all participant-related conference expenses
incurred during JCOC 74.

The final cost summary provided by the treasurer showed that the program manager spent
$96,714 of the $111,000 in participant fees collected and available for use on contract-
related expenses. However, because the program manager erroneously funded $51,068
of the participant-related expenses in FY 2007 against delivery order 0010, CLIN 0004,
the firm-fixed-price quote that the contracting officer established for delivery order 0011,
CLIN 0003, did not accurately reflect the actual firm-fixed-price that the program
manager should have funded using the conference fees collected. This resulted in the
program manager not providing sufficient funding from the Public Affairs reimbursable
account (9780100.1120.9301) to comply with 10 U.S.C. 2262 and may have resulted in


16
  The JCOC program manager had a total of $244,358 to fund JCOC 74, of which $208,308 ($111,000
collected from participants and $97,308 in AFIS allotments) was available for use on the contract. For this
analysis, we excluded the $18,050 in ORF received for JCOC 74 because those funds did not affect the
contract and the program manager had either used or returned the funds after the conference. We also
excluded the $18,000 collected from individuals who did not attend the conference and may be entitled to a
refund. See Appendix C, Table C-3 for more detail on JCOC 74 sources of funding and outlays.


                                                    34 

underfunding the actual participant costs by at least $19,781. 17 The program manager
needs to deposit the remaining $14,286 in conference fees ($111,000 less $96,714) into
the U.S. Treasury to comply with 10 U.S.C. 2262, unless the program manager can show
that the JCOC Program spent these fees on participant-related expenses. In addition, the
program manager had collected $18,000 from six individuals who did not attend JCOC
74. The JCOC program must either return the $18,000 to the individuals or deposit it in
the U.S. Treasury.

In January 2009, we questioned the OASD(PA) staff about the status of the excess
conference fees, and they informed us of their concerns that the contractor had charged
participant expenses against the wrong CLIN, causing an inappropriate charge to the
AFIS funds. Based on our analysis, we agree with this concern. The review of contract
payments showed that the contractor had actually charged only $37,572 to delivery
order 0011, CLIN 0003. The contracting officer erroneously deobligated the remaining
$39,361 in conference fees on CLIN 0003. The contracting officer should have been able
to deobligate only the AFIS funds provided for the cost-CLIN (delivery order 0010,
CLIN 0004), because the other CLINs should have reflected the firm-fixed-price for
completing the statement work and no changes to the statement of work occurred. The
ASD(PA), along with the WHS Financial Management Directorate, should require the
JCOC program manager and contracting officer to realign the $51,068 improperly
invoiced on delivery order 0010, CLIN 0004, to delivery order 0011 and have the
contracting officer amend delivery order 0011 to provide sufficient conference fees from
the Public Affairs reimbursable account to fund this invoice. As of May 29, 2009, the
program manager and the WHS Financial Management Directorate still had not provided
documentation showing they had initiated a review of the questionable payments,
realigned delivery order costs to the correct CLINs, or reconciled the remaining $91,429
in funding (see Table C-3) not expended during JCOC 74. Although 10 U.S.C. 2262
does not explicitly state a period for depositing excess funds, we believe that waiting
more than 18 months to deposit excess conference fees with the U.S. Treasury is
excessive and that the program manager demonstrated a lack of proper funds
management. The ASD(PA) should realign the payments made for JCOC 74 and
determine how much funding the program manager needs to return to the AFIS
allotments. The ASD(PA) should then deposit the remaining unexpended conference
fees in the U.S. Treasury as a miscellaneous receipt.

DOD Guidance for Conducting Future JCOC
Conferences
When Congress issued 10 U.S.C. 2262 in October 2006, the Office of the Under
Secretary of Defense (Comptroller) did not immediately update the DOD Financial
Management Regulation to reflect the new requirements. In February 2007, the
USD(C)/CFO issued a memorandum informing the DOD Components of the
requirements, without explaining how to properly collect and use conference fees to


17
  We determined the amount by subtracting the $76,933 obligated on delivery order 0011, CLIN 0003,
from the $96,714 in participant expenses.


                                                 35 

support all future DOD conferences. In September 2007, when the OASD(PA) hired a
conference planner to support JCOC 74, the Office of the Under Secretary of Defense
(Comptroller) still had not issued guidance within the DOD Financial Management
Regulation. The lack of detailed procedures for ensuring compliance with 10 U.S.C.
2262 contributed to the JCOC program manager’s inability to provide the correct funding
and a complete statement of work, both of which are needed for the contracting officer to
issue a contract that does not violate 10 U.S.C. 2262. In April 2009, the Office of the
Under Secretary of Defense (Comptroller) issued a working draft of a new chapter to the
DOD Financial Management Regulation that contained the detailed requirements for
conducting future conferences in accordance with 10 U.S.C. 2262. Once the Office of
the Under Secretary of Defense (Comptroller) issues the new guidance, the ASD(PA)
should update DOD Instruction 5410.19 and other JCOC program guidance discussed in
Finding A.

Conclusion
Because there was inadequate DOD guidance in place on how to administer a conference
using 10 U.S.C. 2262, the OASD(PA) incorrectly funded the contracting actions needed
to support JCOC 74. This resulted in the misuse of $97,308 in AFIS-appropriated funds
that may have inappropriately augmented the funds provided to the OASD(PA) to
administer the JCOC program. The ASD(PA) and Director, WHS, must perform a
preliminary review to determine whether the use of the AFIS allotment augmented the
OASD(PA) budget and resulted in a potential Antideficiency Act violation. They should
also determine whether the conference costs incurred in the FY 2007 AFIS allotment met
a bona fide need in FY 2007. If they did not meet a bona fide need, the ASD(PA) must
take appropriate actions to report an Antideficiency Act violation, reimburse AFIS for
funds obligated, and report the findings to the OSD. To prevent future occurrences, the
Office of the Under Secretary of Defense (Comptroller) should update the DOD Financial
Management Regulation to include procedures for implementing the provisions of
10 U.S.C. 2262. The ASD(PA) and WHS, Financial Management Directorate, must also
review the use of the delivery orders during JCOC 74, realign expenses to the appropriate
funding sources, determine whether the contract was overpaid, and determine how much
of the remaining $91,429 in unspent conference fees need to be deposited in the
U.S. Treasury or reimbursed to AFIS. In addition, the Director, WHS, should have the
WHS Senior Acquisition Executive review the use of the indefinite-delivery,
indefinite-quantity contract by the WHS contracting office and ensure that any future
delivery orders meet the requirements of 10 U.S.C. 2262. The Senior Acquisition
Executive should also direct the contracting officer to appoint a COR and obtain a
complete statement of work for each delivery order to ensure that the contractor bills
costs to the correct delivery order and CLIN.




                                           36 

Recommendations, Management Comments, and
Our Response
C.1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer incorporate the requirements of section 2262, title 10, United
States Code, into the DOD Financial Management Regulation.

Under Secretary of Defense (Comptroller) Comments
The Deputy Chief Financial Officer agreed and stated that his office issued DOD
Financial Management Regulation, volume 12, chapter 32, in July 2009.

Our Response
The Deputy Chief Financial Officer’s comments were responsive.

C.2. We recommend that the Assistant Secretary of Defense (Public Affairs) and
Director, Washington Headquarters Services:

       a. Conduct a preliminary review of the use of American Forces Information
Service funds to pay for Joint Civilian Orientation Conference 74 costs. If
necessary, reimburse the American Forces Information Service for funds obligated
and report Bona Fide Needs Rule or Antideficiency Act violations to the Office of
Secretary of Defense.

Assistant Secretary of Defense (Public Affairs) Comments
The Principal Deputy ASD(PA) agreed and stated that the DMA would coordinate with
WHS to review the use of AFIS-appropriated funds to pay for JCOC 74 and determine
the need for corrective action.

Administration and Management, OSD Comments
The Acting Director, Administration and Management, responding for WHS, disagreed
and stated that the mission of AFIS and ASD(PA) are aligned as indicated in the FY 2007
budget.

Our Response
The Principal Deputy’s comments were responsive and his actions meet the intent of the
recommendation. He should work with the Director, WHS, to establish a completion
date for these actions. The Acting Director’s comments were nonresponsive. Although
AFIS was organizationally aligned with the ASD(PA) as a field activity, DOD provides
funding for the AFIS programs under a separate allotment based on a Budget Estimate
Submission detailing the programs funded using that allotment. The JCOC program is an
ASD(PA) program in support of the Secretary of Defense that the OASD(PA) should
have budgeted for and OSD should have funded using the allotment provided to the OSD.




                                          37 

Therefore, the use of AFIS funding caused a misuse of the funds allotted to AFIS and
supplemented the OSD allotment. We request that the Acting Director reconsider his
position and provide additional comments on the final report addressing the misuse of
AFIS funds.

        b. Require the JCOC program manager and WHS, Financial Management
Directorate to work with the WHS contracting officer to review and reconcile the
invoice payments for the two delivery orders used to fund Joint Civilian Orientation
Conference 74. They should then reallocate the conference expenses to the correct
lines of accounting and reimburse the American Forces Information Service as
necessary; determine whether the contractor was overpaid for services provided
and take any needed collection actions; and deposit any residual conference fees into
the U.S. Treasury.

Assistant Secretary of Defense (Public Affairs) Comments
The Principal Deputy ASD(PA) agreed and stated that his office would support the
efforts of WHS to review and reconcile the financial records of JCOC 74 and take
appropriate actions for final disposition of any remaining funds.

Administration and Management, OSD Comments
The Acting Director, Administration and Management, responding for WHS, agreed and
stated that WHS had reconciled invoices and found that the contractor invoiced the items
and services correctly and was not overpaid.

Our Response
The Principal Deputy’s comments were responsive and the actions his office plans to take
meet the intent of the recommendation. The comments of the Acting Director were
partially responsive. The intent of the recommendation was to require a full
reconciliation of the funding provided for JCOC 74. The Acting Director’s comments
did not address how his office handled the $73,429 remaining at the conclusion of
JCOC 74. According to 10 U.S.C. 2262, the JCOC program manager should have
deposited the fees collected from the individuals into the appropriation allotment from
which the program manager would have paid the conference expenses. Because the
AFIS allotment paid the expenses, ASD(PA) and WHS should conduct a reconciliation to
determine how much money to return to AFIS. WHS must return the remaining fees to
the U.S. Treasury as miscellaneous receipts. Under no circumstances should these funds
remain in the account that WHS originally deposited them into. We request that the
Acting Director provide additional comments on the final report detailing how his office
will work with ASD(PA) to resolve the disposition of the unused JCOC 74 funds.

       c. Determine whether the six individuals who paid for Joint Civilian
Orientation Conference 74 but did not attend require a refund. Either make
refunds or deposit the $18,000 collected into the U.S. Treasury as a miscellaneous
receipt.




                                           38 

Assistant Secretary of Defense (Public Affairs) Comments
The Principal Deputy ASD(PA) agreed and stated that his office had provided all
available information to WHS for action.

Administration and Management, OSD Comments
The Acting Director, Administration and Management, responding for WHS, disagreed
and stated that the Defense Finance and Accounting Service had refunded the fees to the
six individuals in September 2008.

Our Response
The Principal Deputy’s and Acting Director’s comments were responsive. Although the
Acting Director disagreed, the intent of the recommendation was for the proper
disposition of the $18,000. Refunding the fees to the individuals not attending the
conference meets the intent of the recommendation.

C.3. We recommend that the Director, Washington Headquarters Services, direct
the Senior Acquisition Executive in his office to review the use of indefinite-delivery,
indefinite-quantity contract HQ0034-06-D-1007 and ensure that all future delivery
orders the contracting officer issues meet the requirements of section 2262, title 10,
United States Code. The Senior Acquisition Executive should also direct the
contracting officer to appoint a Contracting Officer Representative and obtain a
complete statement of work for each delivery order to ensure that the contractor
bills costs to the correct delivery order and contract line item number.

Administration and Management, OSD Comments
The Acting Director, Administration and Management, responding for WHS, agreed and
stated that WHS would no longer use the existing contract and would review all future
contracts for correct usage. He also stated that WHS would comply with the Federal
Acquisition Regulation and Defense Federal Acquisition Regulation Supplement and that
a policy was in place for CORs.

Our Response
The Acting Director’s comments were responsive. The contract delivery orders in
question have been fully deobligated. The actions WHS has taken to review the use of
the contract and the actions it plans to take to ensure future contracts comply with
10 U.S.C. 2262 and acquisition guidance, and meet the intent of the recommendation.




                                           39 

Finding D. Ethical Practices
JCOC staff members and other DOD personnel participating in the program may have
inappropriately received and accepted gifts and other benefits or misused Government
resources valued at up to $1,304. This occurred because the ASD(PA) had not established
internal control procedures addressing how to purchase, distribute, and account for items
purchased with conference fees. In the absence of written policies and procedures, former
JCOC program managers inappropriately directed the distribution of these items to DOD
personnel without justifying the need to dispense appropriated funds for official or
authorized purposes. As a result, the DOD personnel who attended JCOCs 72 and 73 may
have violated DOD ethics rules or other fiscal law.

Ethical Conduct Regulations
Title 5, Code of Federal Regulations (C.F.R.), part 2635, sections 2635.202, 2635.203, and
2635.204 (5 C.F.R. 2635) establish the standards of ethical conduct for Executive Branch
employees. As a rule, DOD personnel may not directly or indirectly solicit or accept
gifts—including meals, entertainment, and hospitality—because of their official position.
Executive Branch employees can accept unsolicited gifts having a value of $20 or less from
one source per occasion but cannot accept gifts of more than $50 in a calendar year. In
addition, 5 C.F.R. 2635.704 provides that a Government employee has a duty to protect and
conserve Government property and must not use such property, or allow its use, for other
than authorized purposes.

Conference Fees
JCOC program managers purchased mementos and other items using the conference fees
they collected and provided these items to both the civilian participants and others
attending the conference. The types of mementos purchased included command coins,
polo shirts, and Rungu clubs. ††††† The program managers also used the conference fees to
pay for alcohol and entertainment provided to the JCOC participants and DOD personnel.
JCOC staff members and other DOD personnel attending the conferences often consumed
the same meals and enjoyed the same drinks and entertainment. According to the welcome
package given to each participant, DOD was to use the conference fees to defray the
participants’ conference activities costs.

Gifts and Items Funded by JCOC Conference Fees
JCOC staff members and other DOD personnel attending JCOC 72 activities potentially
received and accepted gifts purchased using the fees collected from non-Federal
participants. Likewise, program managers potentially provided DOD personnel attending
JCOC 73 with items procured using appropriated funds and fees collected from civilians
under 10 U.S.C. 2262 that resulted in the misuse of Government funds and property. For


†††††
    A rungu is a wooden throwing club or baton bearing special symbolism and significance in certain East
African tribal cultures.


                                                    40 

DOD personnel that attended both conferences and received these items, a potential ethical
violation valued at up to $1,304 may have occurred. By using a portion of the JCOC 72
conference fees for gifts (mementos and other items) and other benefits (drinks and
entertainment) for DOD personnel, JCOC program managers improperly converted the
conference fees to purposes other than intended by the civilian participants. Since JCOC
managers had no authority to collect these fees, the JCOC staff and other DOD personnel
in attendance who accepted these items had accepted unsolicited gifts that violated ethics
rules. In addition, the program manager’s use of the fees collected from JCOC 73
participants to purchase mementos and other items potentially resulted in a misuse of funds
if they purchased items for DOD personnel that were not required for conducting official
duties.

Purchase of Mementos and Other Items
Documentation showed that program managers routinely purchased mementos and other
items in excess of the number of civilian participants attending JCOCs 72 and 73. In most
cases, the number of items purchased equaled or exceeded the total number of JCOC
participants and appeared to include the purchase of items for DOD personnel attending
each conference. A program manager stated that when ordering official mementos, the
JCOC staff estimated that 50 JCOC participants would attend each conference. However,
our review of documentation showed that the program managers often purchased
mementos in quantities exceeding 50. For example, the JCOC 72 program manager
purchased 31 different mementos and other items to provide to the 45 JCOC participants in
attendance. JCOC 72 documentation showed the program manager purchased 27 of the 31
different items, with a cost per person totaling $385.89, in quantities that exceeded
50-participant goal or the 45 participants actually in attendance (see Appendix D, Table D-
1). Because the JCOC program had no authority to collect fees until October 17, 2006,
when Congress issued 10 U.S.C. 2262, the funds used to purchase these items represent the
private funds of the civilian participants and any purchase of these items and distribution to
DOD personnel would be considered a gift. For JCOC 73, the program manager purchased
excess quantities for 23 different items, with a cost per person totaling $441.05 (see
Appendix D, Table D-2). A potential ethics violation arises for JCOC 72 because the
program manager potentially misused appropriated funds to purchase mementos and other
items and distribute them to DOD personnel without first justifying the requirement to
provide DOD personnel with these items in order to conduct official duties. For some
mementos provided during JCOCs 72 and 73, such as command coins and clothing, the
program manager needed to justify the purpose of using Government funds to procure these
items for DOD personnel.

Disposition of Excess Items
JCOC program managers stated that they did not maintain a record of what they did with
the excess items purchased. According to the JCOC staff, a former program manager
allowed and encouraged the JCOC staff to provide the DOD personnel attending the
conference activities with most, if not all, of the mementos and other items provided to
participants. If the program managers gave the excess mementos and other items to DOD
personnel, some DOD employees may have received mementos and other items totaling



                                             41 

more than $800 if they attended both conferences. By receiving items of this dollar value,
DOD personnel may have violated the ethics rules in 5 C.F.R. 2635.204 and 704.

We did not verify that individual JCOC staff members or other DOD personnel in
attendance at these conferences received one of each of the mementos and other items
listed in Appendix D. However, based on the guidance of the former JCOC program
manager and discussions we held with other DOD personnel who attended JCOC events,
we concluded that JCOC staff members and other DOD personnel did receive some, if not
all, of the mementos and other items. On two different occasions, we examined the
merchandise in the storage room maintained by the JCOC staff to determine whether the
JCOC Program had maintained the excess items purchased in inventory. The storage room
did not contain many of the excess mementos and other items purchased.

Receptions and Entertainment
During JCOCs 72 and 73, the JCOC staff hosted a series of social events that the treasurer
paid for primarily using conference fees. The JCOC program managers paid the meal costs
for DOD personnel attending using appropriated funds but did not require the DOD
personnel to pay for a proportionate share of the receptions and entertainment provided
during these events. The program managers required the treasurer to request appropriated
funding to pay for the meal costs of the DOD personnel, but directed the use of the fees
collected from the non-Federal participants to pay for the other costs associated with
attending these events, including any alcoholic drinks and entertainment provided. For
example, on April 27, 2007, JCOC 73 held a reception and dinner in Doha, Qatar, for 45
JCOC participants, 14 JCOC staff members, and 16 other DOD personnel. The voucher
supporting this event showed a total cost of $19,312 for the reception and dinner. The
voucher showed the following breakdown of expenses.

      Dinner buffet - $4,415
      Tent rental - $5,550
      Reception - $2,468
      Drinks during the reception held before dinner - $4,558
      Drinks during and after dinner - $2,321

The treasurer split the dinner buffet expense between the JCOC participants and the staff
and other DOD employees. He paid for the DOD share of the dinner buffet using Defense
Operation and Maintenance funds and the participants’ share using the conference fees
collected. The program manager used the conference fees to pay the remaining $14,897 in
costs associated with this event, including the tent rental, the entertainment, and the cost of
alcoholic drinks provided before, during, and after dinner. Because DOD personnel
attending the events did not pay these additional costs as part of their share of the expenses,
the program manager needed to justify the use of the conference fees he collected to defray
these costs. Our review showed that that the program manager had not elected to use the
provisions of 10 U.S.C. 2262 for JCOC 73 and instead deposited these fees into a bank
account. Therefore, the program manager violated the Miscellaneous Receipts Statute.
Because the program manager used the conference fees to defray the cost of DOD
personnel attending these events, the entertainment and alcoholic drinks received by the


                                              42 

JCOC staff and other DOD personnel participating in the events were gifts. Likewise, use
of conference fees to defray costs for DOD personnel attending social events during JCOC
72 resulted in the acceptance of gifts by the DOD personnel involved. If the program
manager had used the provision of 10 U.S.C. 2262 correctly, he would have been required
to deposit the fees collected into the Defense Operation and Maintenance appropriation and
use the fees to pay for the conference expenses. Therefore, the use of the conference fees
to fund the purchase of alcoholic drinks and entertainment was a potential misuse of the
funds unless the program manager properly justified their use as a necessary expense.

We reviewed the documentation supporting the receptions and entertainment costs during
JCOCs 72 and 73 to determine the cost benefit to JCOC staff and other DOD personnel
attending the conferences. In Tables 4 and 5, we break out the cost per person of the
receptions and entertainment that, according to 5 C.F.R. 2635.202 and 704, DOD personnel
attending the activities on JCOCs 72 and 73 should have considered to be gifts or an
inappropriate distribution of items to DOD personnel causing a potential misuse of funds.
                    Table 4. JCOC 72 Receptions and Entertainment
    Reception             Cost of       Number of         Cost Per       DOD Personnel
     Location             Event          Attendees       Attendee           Attending
Djibouti               $ 2,060.00           73             $ 28.22              28
Washington, D.C.          1,314.00           65              20.22              19
Bahrain                   2,822.34          85               33.20              40
Doha                      5,892.99          72               81.85              25
Totals*                $12,089.33                          $163.49
* Totals are provided only for the dollar values because totaling the number of attendees would count
individuals more than once. The presentation of the number of attendees at each event is for information
only.


Each of the JCOC staff and other DOD personnel who attended these JCOC 72 events
potentially received up to $163.49 in gifts.

                       Table 5. JCOC 73 Receptions and Entertainment
    Reception              Cost of      Number of      Cost Per     DOD Personnel
    Location               Event        Attendees      Attendee       Attending
    Sigonella            $ 254.45           60          $ 4.24            15
     Djibouti              2,502.45         72             34.76          26
     Bahrain               5,876.59         84             69.96          39
      Doha                14,896.61         75            198.62          30
    Al Udeid                 352.25         59              5.97          14
     Totals*             $23,882.35                     $313.55
* Totals are provided only for the dollar values because totaling the number of attendees would count
individuals more than once. The presentation of the number of attendees at each event is for information
only.




                                                     43 

Each of the JCOC staff and DOD personnel who attended these JCOC 73 events potentially
received up to $313.55 in alcoholic drinks and entertainment that the program manager did
not ensure qualified as an appropriate use of funds.

Governing Policies and Procedures
The ASD(PA) did not have effective internal control procedures addressing how to
purchase, distribute, and account for items purchased with conference fees. In the absence
of written policies and procedures, former JCOC program managers inappropriately
directed the distribution of extra mementos and other items to DOD personnel participating
in the program. They also allowed staff to attend receptions and entertainment functions
paid for using conference fees provided by the civilian participants without justifying the
use of these funds.

Conclusion
JCOC staff members and other DOD personnel participating in the JCOC program may
have received and accepted gifts and other benefits that exceeded allowable limits or used
the fees collected for unauthorized purposes. If so, the program managers and individuals
may have violated the ethics rules contained in 5 C.F.R. 2635. JCOC program managers
did not keep records of who received the excess items. However, it was routine for JCOC
staff and other DOD employees attending JCOC events to receive them and benefit from
receptions and entertainment at the events. Because some of the DOD employees attended
both JCOCs 72 and 73, they may have received gifts or the program manager may have
inappropriately used funds to benefit DOD personnel totaling up to $1,304 per individual.
The ASD(PA) should coordinate with the DOD General Counsel to review JCOC practices
for ordering and distributing mementos and other items and paying for receptions and
entertainment costs that benefit DOD personnel. They should determine whether any
ethics violations occurred and take appropriate actions based on their findings. In addition,
the ASD(PA) should establish internal control procedures for purchasing mementos and
other items and paying for receptions and entertainment during conferences. The ASD(PA)
should incorporate internal control procedures into his polices for conducting the JCOC
Program that address who should receive items, the purchase quantities required, and how
to maintain an inventory and account for any excess items. If the program managers
require JCOC staff members and other DOD personnel to receive the items provided to
participants in order to conduct their official duties, the ASD(PA) should coordinate with
the Office of General Counsel to determine an appropriate way to fund the purchases.


Management Comments on the Finding and Our
Response
The Director, Standards of Conduct Office, DOD General Counsel, stated that the real
concern was whether the use of funds violates fiscal law. She stated that it was unclear
whether the JCOC program managers purchased excess mementos and other items or
whether ordering 50 of each memento or other item was improper. She also stated that
distributing items to DOD personnel appears to be a misuse of property and that the JCOC
program managers should have preserved the items for official use. However, it was


                                             44 

unclear whether the program managers believed distribution of mementos and other
benefits to staff was for official or authorized purposes or whether this was appropriate.
Lastly, she said that it was unclear whether the consumption of meals by staff raised ethical
issues.

Based on the Director’s comments, we updated the finding to address 5 C.F.R. 2635,
subsection 704, and the potential that some of the items purchased and the entertainment
provided resulted from a misuse of Government property of funds. We do not agree that
program managers used Government funds to procure items for JCOC 72, since they had
no authority to collect fees. Mementos and other items given to DOD personnel acquired
using conference fees should be considered as gifts to those receiving them. Although the
authority to collect fees existed for JCOC 73, the program managers had not elected to use
that authority when conducting JCOC 73. Therefore, collecting the fees and keeping them
instead of depositing them into the Defense Operation and Maintenance appropriation
allotment for OASD(PA) made the fees miscellaneous receipts that the program manager
should have deposited in the U.S. Treasury. Therefore, depositing the fees into a bank
account and using them to pay for items and entertainment amounted to using private funds
and should be considered a gift. We agree with the Director that, at a minimum, this was a
misuse of Government funds because the JCOC program managers procured and
distributed these items to DOD personnel without ensuring compliance with fiscal law.

Recommendations, Management Comments, and
Our Response
Revised Recommendation
Based on management comments received from the Principal Deputy ASD(PA), we
revised the wording in Recommendation D.2 to clarify the intent of the recommendation
and highlight the need to develop internal control procedures.

D.1. We recommend that the Assistant Secretary of Defense (Public Affairs)
coordinate with the DOD General Counsel to review the potential ethics violations
arising from the acceptance of gifts and other benefits during Joint Civilian
Orientation Conferences 72 and 73. The review should consider conference practices
for ordering and distributing mementos and other items and paying for receptions
and entertainment costs that benefited DOD personnel. Based on the review, they
should take appropriate actions to resolve any ethics violations.

Assistant Secretary of Defense (Public Affairs) Comments
The Principal Deputy ASD(PA) disagreed and stated that his office does not have any
records to support or deny the claim that there were ethical violations arising from the
acceptance of gifts or other benefits during JCOCs 72 and 73. He stated that as of
JCOC 77, his office had standardized the process for ordering and distributing mementos to
follow ethics regulations. Excess items resulting from participant cancellation are sent to
the participant and deducted from the conference fee refund. He also stated that all DOD




                                             45 

personnel at these events are on official orders and working the event. Therefore, the
mementos, entertainment, and receptions are not for the benefit of the DOD personnel.

Our Response
The Principal Deputy’s comments were not responsive. The need for the Principal Deputy
to conduct a review as to whether violations of Government ethics regulations occurred
during JCOCs 72 and 73 is not mitigated because his office may not have retained all the
documentation. Our audit showed that program managers had purchased mementos and
other items, paid for with fees received from the conference participants, that exceeded the
number of participants in attendance. JCOC personnel involved informed us that DOD
personnel received some or all of the items. Government document retention regulations
require that documentation used to purchase these goods and services, including invoices
and receiving reports, be retained for 6 years and 3 months after payment. Therefore,
documentation supporting these purchases should still exist in the OASD(PA), WHS, or
with the Defense Finance and Accounting Service. The JCOC treasurer and other
individuals currently in the OASD(PA) attended these conferences and can help provide
the needed information to determine whether Government personnel received the items
highlighted in this report. If this occurred, the ASD(PA) must work with the DOD
Standards of Conduct Office, DOD General Counsel, to report an ethics violation and take
appropriate actions. We request that the ASD(PA) reconsider his position and provide
additional comments on the final report. As discussed in our response below, the ASD(PA)
must work with the DOD General Counsel to determine the exact status of the private
funds. Therefore, we recommend that as part of the ASD(PA) review, the question of
whether the funds remained private or became Government funds receive a fiscal review.
This will ensure that the ASD(PA) can appropriately support the management actions
needed to address the ethical violations that occurred. We request that the ASD(PA) work
with the DOD General Counsel, reconsider his position, and provide additional comments
on the final report.

DOD General Counsel Comments
The Director, Standards of Conduct Office, partially agreed and stated that the analysis for
ethical failure was flawed and that 5 C.F.R. 2635, subsection 704, should be the basis for
the ethical violations. The Director contended that the ethics violation discussion should
address the potential misuse of Government resources (subsection 704) instead of citing the
gift provision (subsection 204).

Our Response
The Director’s comments were responsive. We agree that 10 U.S.C. 2262 granted the
JCOC program managers authority to collect fees and use them to defray costs associated
with conducting conferences that occurred after October 17, 2006. However, the collection
of fees and purchase of items for JCOC 72 occurred before this authority. Therefore, we
contend that the gift provisions of 5 C.F.R. 2635 were relevant to that conference. We
agree that if the ASD(PA) could consider the fees collected for JCOC 73 as Government
funds, a potential ethical violation would exist based on a misuse of Government resources.
However, because the provisions of 10 U.S.C. 2262 were elective in nature and JCOC
program managers did not elect to apply these provisions during JCOC 73, we question


                                            46 

whether the program manager could consider the fees collected as Government funds as
contended by the DOD General Counsel. Regardless of which provisions of 5 C.F.R. 2635
are used, we still believe the ASD(PA) must conduct a review of the practices his office
used in conducting JCOCs 72 and 73 and determine whether any ethical violations
occurred and, if so, coordinate with the Standards of Conduct Office to take appropriate
actions. After reviewing the Director’s comments, we also believe there is a need for the
Office of General Counsel to clarify whether the private funds collected by DOD personnel
without authority continued to remain private funds or changed to Government funds.

D.2. We recommend that the Assistant Secretary of Defense (Public Affairs) establish
internal control procedures for the purchase and distribution of mementos and other
items during Joint Civilian Orientation Conferences that ensure compliance with
DOD ethical practices. The internal control procedures should be incorporated into
policies that specify who should receive each item, the purchase quantities for each
item, and how to maintain an inventory and account for any excess items. If the
program managers require staff members and other DOD personnel to receive
conference-related items, the program manager should determine an appropriate way
to fund the purchases using appropriated funds. The procedures should be
coordinated with the DOD General Counsel.

Assistant Secretary of Defense (Public Affairs) Comments
The Principal Deputy disagreed and stated that his office follows established financial
management policies and procedures. He stated that he would fund JCOC 79 and all future
conferences using appropriated funds. He further stated that his office would make all
purchases in accordance with financial management regulations and maintain an accurate
inventory and accounting of items.

DOD General Counsel Comments
Although not required to comment, the Director, Standards of Conduct Office, agreed and
had no legal objections to our recommendation. The Director stated that the Office of
DOD General Counsel stands ready to assist the ASD(PA) in developing new policy.

Our Response
The Principal Deputy’s comments were not responsive. The intent of the recommendation
was not for his office to write new financial management requirements, but to develop
internal control procedures that ensure that the purchase and distribution of mementos and
entertainment, regardless of whether JCOC program managers use private or DOD-
appropriated funds to acquire them, do not subject DOD personnel to ethical violations.
We reworded the original recommendation to clarify this issue. In addition, the funding of
mementos and other items to provide to non-DOD and DOD participants must meet all
required fiscal guidance. We request that the ASD(PA) reconsider his position and provide
additional comments on the final report explaining how his office will develop and
implement internal control procedures over the purchase and distribution of JCOC
mementos and entertainment.




                                           47 

Appendix A. Scope and Methodology
We conducted this performance audit from October 2007 through July 2009 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We referred to the following public laws and DOD guidance to determine whether
OASD(PA) properly administered and funded the JCOC program.

   		 5 U.S.C. 5702, “Per Diem; Employees Traveling on Official Business”
   		 10 U.S.C. 127, “Emergency and Extraordinary Expenses”
   		 10 U.S.C. 2262, codified Public Law 109-364, Section 1051, “Department of
       Defense Conferences: Collection of Fees to Cover DOD Costs”
   		 DOD Instruction 5410.19, “Public Affairs Community Relations Policy 

       Implementation” 

   		 DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program


       Procedures” 

   		 DOD Directive 7250.13, “Official Representation Funds (ORF)”
   		 Administrative Instruction No. 48, “Joint Civilian Orientation (JCOC) Fund”

We also reviewed governing regulations and DOD guidance for using ORF and complying
with ethics policies. In addition, we reviewed compliance with the Antideficiency Act.
Specifically, we reviewed the requirements of 31 U.S.C. 3302(b) to determine whether the
procedures used to conduct the JCOC program ensured compliance with the Miscellaneous
Receipts Statute. We conducted site visits to the OASD(PA) in the Pentagon and to WHS
in Arlington, Virginia, where we interviewed JCOC program managers, the treasurer, and
other JCOC staff members to determine how they conducted and accounted for JCOC
conference activities. We reviewed the procedures used to administer JCOCs 72, 73, and
74. During the audit, we reviewed the JCOC program managers’ use of $403,000 in fees
collected from participants and $160,179 in funding received from various Defense
Operation and Maintenance appropriation allotments. Pertinent details about the three
conferences are contained in Appendix B.

We also analyzed supporting documentation, such as bank deposits, expenditure reports,
and receipts, to determine whether the OASD(PA) and WHS complied with public laws
and DOD policies when conducting JCOC conference activities. Additionally, we obtained
and reviewed travel authorizations and vouchers for the JCOC staff attending JCOCs 72
and 73 to ensure that the treasurer did not request reimbursement for Defense Operation
and Maintenance appropriation funds for the same travel expenses claimed by the JCOC


                                           48 

staff members. We also reviewed the actions taken to close the JCOC bank in January
2008 to ensure that the U.S. Treasury received the funds and the closure complied with
DOD policies.

For JCOC 74, we reviewed the awarding of contract delivery orders to determine whether
the JCOC program manager complied with the requirements in Public Law 109-364 for
collecting fees to cover conference costs. We also reviewed the documentation supporting
contract payments and the use of JCOC participant fees.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DOD IG) has issued
two reports discussing the JCOC program. Unrestricted DOD IG reports can be accessed at
http://www.DODig.mil/audit/reports.

DOD IG Report No. D-2009-032, “The America Supports You Program,” December 12,
2008

DOD IG Report No. D-2009-028, “Organizational Structure and Managers’ Internal
Control Program for the Assistant Secretary of Defense (Public Affairs) and American
Forces Information Service,” December 10, 2008




                                            49 

Appendix B. Conference Dates and
Locations

                                                                  Number of
                                                                    JCOC
JCOC Number          Dates                   Locations Visited    Participants
                                           Washington, D.C.;
                                           Manama, Bahrain;
                                           Kuwait City, Kuwait;
                                           Doha, Qatar; and
    72        October 15-22, 2006          Djibouti, Djibouti         45
                                           Washington, D.C.;
                                           Manama, Bahrain;
                                           Kuwait City, Kuwait;
                                           Doha, Qatar; and
    73        April 22-29, 2007            Djibouti, Djibouti         45
                                           Honolulu, Hawaii;
                                           Tumon, Guam;
              November 4-11,               Manila, Philippines;
    74        2007                         and Okinawa, Japan         37




                                    50 

Appendix C. Review of Financial Activity
In the following tables, we provide a break down of the financial activity for JCOCs 72, 

73, and 74. 

                Table C-1. JCOC 72 Sources of Funding and Outlays

        Financial Activity            Funds Received          Outlays           Balance

Beginning Balance JCOC 72                                                          $44,059

  Conference Fees Collected                   $135,000

  Official Representation Funds                     6,928

  Defense Operation and
   Maintenance Funds                               15,714

 Total Funds Received                         $157,642

  Refunds to Participants                                        $    1,000

  Expenses Charged to
Participants                                                      121,700

  DOD Expenses                                                       22,642

 Total Outlays                                                   $145,342

 Net Funds                                                                         $12,300

Ending Balance for JCOC 72                                                         $56,359




                                            51 

                   Table C-2. JCOC 73 Sources of Funding and Outlays

          Financial Activity                Funds Received               Outlays             Balance

Beginning Balance                                                                               $56,359

     Conference Fees Collected                        $139,000

     Official Representation Funds                         3,344

     Defense Operation and                                12,107
      Maintenance Funds

 Total Funds Received                                 $154,451

     Refunds to Participants                                                $    3,000

  Expenses Charged to                                                        141,869
Participants

     DOD Expenses                                                               15,451

 Total Outlays                                                              $160,320

 Net Funds                                                                                       (5,869)

Ending Balance JCOC 73 19                                                                       $50,490




19
  On September 4, 2007, the treasurer wrote a check to the U.S. Treasury for $50,118.29, leaving $371.70
in the account to cover two remaining uncleared checks. On December 21, 2007, the treasurer completely
removed all funds from the bank account. The treasurer formally closed the bank account on January 16,
2008.


                                                   52 

                   Table C-3. JCOC 74 Sources of Funding and Outlays

              Financial Activity                      Funds Received              Outlays            Balance

Beginning Balance JCOC 74                                                                               $      0

     Conference Fees Collected 20                               $129,000

     AFIS Funding Allotment 09/27/07                               80,672

     AFIS Funding Allotment 10/26/07                               16,636

     Official Representation Funds                                 18,050

 Total Funds Received                                           $244,358

  Official Representation Funds                                                      $ 8,053
Returned

     Contract Expenses                                                               134,879

     Official Representation Fund Expenses                                              9,997

 Total Outlays                                                                      $152,929

 Net Funds                                                                                               91,429

 Less Collected Fees Not Available for                                                                 (18,000)
  Use 21

Ending Balance JCOC 74                                                                                  $73,429




20
   This amount includes $111,000 collected from the 37 individuals who attended the conference, plus 

$18,000 collected from 6 individuals who did not attend.


21
   This amount represents $3,000 collected and deposited in the reimbursable account from each of the six 

individuals who did not attend JCOC 74. 



                                                    53
Appendix D. Mementos and Other Items
Received by DOD Personnel
According to 5 C.F.R, 2635.204, Executive Branch employees can accept gifts that are
valued at less than $20. However, they cannot accept more than $50 in gifts in a calendar
year. Tables D-1 and D-2 show a breakout of the mementos and other items purchased to
support JCOCs 72 and 73. Our interviews with JCOC staff members indicated that the
JCOC staff and other DOD personnel received excess items as gifts. Assuming that each
person received only one of each item, the unit cost of mementos and other items received
by each DOD employee who accompanied the JCOC participants could have amounted to
$385.89 and $441.04 on JCOCs 72 and 73, respectively.

                        Table D-1. JCOC 72 Items Purchased
                              Invoiced     Number of Items            Average Cost
Item Description              Amount          Purchased                 Per Item
Padfolios                       $ 707.50          70                          $ 10.11
Travel Pillows                    1,120.00        70                            16.00
Pens, Ink, Cases, and
 Engraving                           450.00           100                        4.50
Comfort Packs                        837.75            71                       11.80
Back Packs                         4,174.25            75                       55.66
Coin Displays                      1,750.00            70                       25.00
Coins                                372.00            62                        6.00
Rungu Clubs                          496.00            62                        8.00
Lithographs                        1,425.00            57                       25.00
Shower Shoes                          55.18            62                        0.89
Shower Towels                        133.30            62                        2.15
Badge Holders                        779.00           100                        7.79
Hats                               1,280.00            80                       16.00
Polo Shirts                        1,846.32            65                       28.40
Pocket Itineraries                   269.10            85                        3.17
Floppy Covers                        348.40            65                        5.36
Command Coins                        204.75            65                        3.15
Logos for Floppy
 Covers                              455.00            65                        7.00
                                                         Subtotal             $235.98




                                           54


                    Table D-1. JCOC 72 Items Purchased (continued)
                                    Invoiced           Number of Items       Average Cost Per
Item Description                    Amount               Purchased                Item
USCG Coins 22                         $ 325.00               65                        $ 5.00
T-Shirts                                 325.00              65                          5.00
Message Tubes                         1,200.00               62                         19.35
CENTAF Flags 23                           29.25              65                          0.45
SOCCENT Coins 24                         455.00              65                          7.00
CFSOCC Coins 25                          455.00              65                          7.00
Pairs of Boot Socks                      608.60              68                          8.95
Pairs of Boots                        6,115.60               68                         89.94
Coins                                  3,610.66             500                          7.22
                                                              Subtotal                $149.91
                                                                Total                 $385.89

                           Table D-2. JCOC 73 Items Purchased
                                    Invoiced            Number of Items       Average Cost Per
     Item Description               Amount                Purchased                 Item
JCOC Hats                              $3,460.00             250                         $ 13.84
Padfolios                                 725.00              70                           10.36
Comfort Packs                             828.25              73                           11.35
Pens                                      692.50             250                            2.77
Backpacks                               4,539.25              75                           60.52
Eye Shades                                816.25              75                           10.88
Walnut Coin Displays                    1,500.00              60                           25.00
JCOC Coins                              5,930.00            2000                            2.97
Cufflinks and Gift Boxes                1,307.60              75                           17.43
Horn of Africa                            733.00              60                           12.22
 Command Coins
Coins                                     249.00                 60                        4.15
Ball caps                                 758.45                 62                       12.23
Floppy Covers and                       1,126.45                 65                       17.33
 Command Coins
Shower Shoes                                62.37                63                        0.99
                                                                  Subtotal              $202.04


22
   United States Coast Guard coins. 

23
   U.S. Air Force Central Command flags. 

24
   U.S. Special Operations Command Central coins.


25
   U.S. Combined Special Operations Component Command coins.


                                                55


                  Table D-2. JCOC 73 Items Purchased (continued)
                               Invoiced     Number of Items      Average Cost
     Item Description          Amount          Purchased           Per Item
Bath Towels                         184.90         86                    $ 2.15
Message Tubes                     1,716.00         66                     26.00
                26
CENTCOM Gift                      1,105.00         60                     18.42
Polo Shirts                       2,166.20         80                     27.08
Luggage Lanyards                  1,211.50       250                       4.85
Jackets                          11,155.34         78                    143.02
CFSOCC Coins                        385.00         55                      7.00
Socks                               696.50         70                      9.95
Boxes to Ship Coin Holders           40.51         75                      0.54
                                                     Subtotal           $239.01
                                                        Total           $441.05




26
     U.S. Central Command gifts.
                                      56
Under Secretary of Defense (Comptroller) Comments






                               OF THE UNDER SECRETARY OF DEFENSE
                                   1100 DEFENSE PENTAGON
                                  WASHINGTON. DC 20301 ·1. 100
                                                                                   AUG 1 3 1009


      MEMORANDUM FOR ASSISTANT INSP ECTOR GENERAL, DEFENSE BUSINESS
                       OPERATIONS

      SUBJECT: Response to Draft Audit Report, "Joint Civilian Orientation Conference
               Program" (Project No. D2007-DOOOFI-02IS.00I)

             This memorandum forwards the Office of the Under Secretary of Defense
      (Comptroller) response to the subject drafl audit report . A copy of the response is
      attached.

             The Department appreciates the opportunity to comment on the subject report.
      My point of contact is




      Attachment :
                                              ~       ~~
                                                M E. Easton
                                                D puty Chief Fi nancial Officer


      As stated




                                               G



                                                                 57
                                                                                                          Final Report 

                                                                                                           Reference






                            PROJECT NO. D2007- DOOOFI-02I S.001

              JOINT C IVILIAN ORIENTATION CONFE RENCE PROGRAM

OFFI CE OF TilE UN DER SECRETARY OF DEFENSE (COMPTROLLER) (OUSD)
COMMENTS TO TIlE DOD OIG RECOMMENDATIONS.


RECOMMENDATION A.2: We recommend that the Ass istant Secretary of Defense (Public
Affairs) and Director, Washington Headquarters Services, in conjunction with the Offices of the
Under Secretary of Defense (Comptroller) and 000 Gene ral Counsel, initiate a preliminary
rev iew of the use of the 10int Civi lian Orientation Conference fees received since the inception
of the Misce llaneous Receipts Statute. The review should detennine whether:

    •   augmenting the Office of Secretary o f Defense appropriated funds allotment with
        conference fees resulted in an Antideficiency Act violation,

    •   sufficient Defense Operation and Maintenance funds were available for the $5,869 cost
        overrun on 10int Civilian Orientation Conference 73, and

    •   the treasurer correctly closed the bank account and refunded overpaid conference fees.

Fol lowing the preliminary review, they should take appropriate acti ons or legal remedies to
address improprieties and report the findings to the Office of Secretary of Defense.

OUSD(C) RESPONSE : Partiall y Concur. The Deputy Chief Financial Officcr concurs that a
preliminary Antideficiency review should be perfonned as required by DoD Regulation 7000.14-
                                                                                                        Revised and
R. "Fi nancial Management Regulation," volume 14, chapter 3., however; the recommendation               redirected
must be specifically addressed to the Director, Washington Headquarters Services as the
administrator of fund s provided to the Office of the Assistant Secretary of Defense (Public
Affairs). The Deputy Chief Financial Officer will request the Director, Washington Headquarters
Services conduct a preliminary investigation to detennine whether fonnal investigations should
occur for any potential Antidcficiency Act violation(s). and complete the preliminary review
within 90 days as required by DoD Regulation 7000.14-R, " DoD Financial Management
Regu lation," volume 14, chapter 3, and provide the resul ts of the pre liminary investigation to the
Under Secretary o f Defense (Comptroller)fDoO Chief Financ ial Officer.

RECOMMENDATION B.3: We recommend that the Assistant Secretary of Defense (Public
AfTairs), in coordination with the Under Secretary of Defense (Comptroller)fDoD Chief
Financial Officer, initiate a preliminary review into the potenti al misuse of appropriated funds if
it is deemed appropriate based on the acti ons taken in response to Recommendation 8.2. As part
of the rev iew. they should detennine whether it was legal to use Defense Operation and
Maintenance fund s for the expenses incurred and, if so, whether sufficient fund s were avai lable
in the appropriation to cover the improper use o f Official Representation Funds. Following the
prel imi nary review, they should coordinate the report with the DoD General Counsel and report
their findings to the Office ofSecrctary of Defen se.




                                                               58
                                                                                                      Final Report
                                                                                                       Reference




                                                                                                    Revised and
OUSO(C) RESPONSE : Partially Concur. The Deputy Chief Financial Officer concurs that a
preliminary Antideficiency review as required by 000 Regulution 7000.14-R, "Financial               redirected
Management Regulation," volume 14, chapter 3.should be perfomled into the misuse of
appropriated fund s, however; the recommendation must be specifical ly addressed to the Director,
Washington Headquarters Services as the administrator of funds provided to the Office of the
Assistant ecrctary of Defense (public Affairs). The Deputy Chief Financial Officer will request
the Director. Washington Headquarters Services conduct a preliminary investigation to
determine whether formal investigations should occur for any potential Antideficiency Act
vio lation(s}, and complete the preliminary review within 90 days as required by DoD Regulation
7000.14-R, "000 Financial Management Regulation," volume 14, chapter 3, and provide the
results of the preliminary investigation to Under Secretary of Defense (Comptroller)IDoO Chief
Financial Officer.

RECOMMENDATION c. t : We recommend that the Under Secretary of Defense
(Comptroller}/DoD Chief Financial Officer inco rporate the requirements of section 2262, title
10, United States Code, into the DoD Financial Management Regulation.

OUSDIC) RESPONSE : Concur. Volume 12, Chapter 32 was published in Jul y 2009 and
incorporated the requirements of section 2262, title 10, United States Code with regard to
collection and retention of conference fee s fro m individual and commercia l participants.

Action completed.




                                                             59
Assistant Secretary of Defense (Public Affairs) Comments






                       OFFICE OF THE ASSISTANT SECRETARY OF OEFENSE
                                         1400 DEFENSE PENTAGON
                                        WASHINGT ON, DC 20301 · 1400

                                                                                        SEP 0 8 10119

        "'''''''''RS
      MEMORANDUM FOR PROGRAM DIRECTOR, DEFENSE FINANCIAL AUDITING
                       SERVICE, OFF ICE OF THE INSPECTOR GENERAL,
                       DEPARTMENT OF DEFENSE

      SUBJECT: Joint Civi lian Orientati on Conference Program (Project No. D2007-DOOOFI·
                02 15.00 1)


              As the Principal Deputy Ass istant Secretary of Defense for Public Affairs (pDASD(pA»,
      I appreciate the opportunity to comment on the subject draft report. The following represents the
      actions my office has taken to date regardi ng the recommendations included in the report.

     Reco mmendation A.t , We recommend that the 000 Director of Administration and
     Management, in conjunclion with the Assistant Secretary of Defense (Public Affairs) and 0 00
     General Counsel , establish detailed policies and procedures for managing future Jo int Civil ian
     Orientation Conferences in compliance with section 2262, title 10, United States Code.
     Specifically, they should:

             a. Update 0 00 Instruction 54 10. 19 to provide detailed guidance on how to effectively
     administer and manage the Joint Civil ian Orientation Conference program. This guidance
     should require the development and submi ssion of an annuaJ budget estimate for conducting the
     program , including an estimate of the amount of appropriated funding needed to support 000
     personnel involved in the program and the amount of reimbursable authority needed to collect
     fees from non-DoD participants. The instruction should also describe refund procedures for
     confcrence fees.

              b. Resc ind Administrative Instruction No. 48, and update 0 00 Instruction 54 10. 19 to
     provide detai led gui dance to program managers on how to effecti vely administer and manage thc
     Jo int Civilian Orientation Conference program, including how to refund overpaid deposits of
     conference fees and requiring an annual program budget estimate and the recording of
     obligations before incurring program costs.

            c. Provide training on the new guidance to the Joint Civilian Orientati on Confe rence
     program manager and staff, as well as Washington Headquarters Services personnel supporting
     the program.

     Response to Recommendation A.t,

             a. Partially concur. Effective with Joint Civilian Orientation Conference (lCOC) 79,
     scheduled for the spring of2010, JCOC wi ll be fully funded by 000. No participant fees will be
     collected. 0 00 Instruction 5410. 19, paragraph 6.9.2, wi ll be updated reflecting this change and
     paragraph 6.9.5 wi ll be deleted.




                                                                   60
        h. Concur. Administrative Instruction 48 should be rescinded. Effective with l eOe 79,
scheduled fo r the spring of 20 10, lCOC wi ll be fuUy funded by 000. No participant fees will be
collected.

       c. Concur. leOe staff wi ll take appropriate train ing to enhance program management.

Ta rget Implement ation A. t . - A pril 20 10

Reco mm end ation A.2. We recommend that the Assistant Sec retary of Defense (Public Affairs)
(OASD(PA» and Di rector, Washington Headquarters Services, in conjunction with Office of the
Under Secretary of Defense (Comptroller) and DoD GeneraJ Counsel, initiate a preliminary
review into the usc of the Joi nt Civi lian Orientation Conference fees received since the inception
of the Miscellaneous Receipts Act. The review shou ld determine whether:

       •      augmenting the Office of Secretary of Defense appropriatcd funds allotment with
       conference fee s resulted in an Anti defic iency Act violation,
       •      sufficient Defense Operation and Maintenance fu nds were avai lable for the
       $5,869 cost overrun on l oint Civilian Oricntation Conference 73, and
       •      the treasurer corrcctl y closed the bank account and refunded overpaid conference
       fees.

Response for Recomm endatio n A.2. Concur with Office of the Under Sec retary o f Defense
(Comptroller) OUSD(C) response provided on August 13,2009.

Reco mmendat ion A.3.; We recommend that the Assistant Secretary of Defense (public
Affai rs):

       a. Address improprieties identified in Recommendation A.2. and take appropriate lega l
and admi nistrative actions.

        b. Develop input for the annual Defense Operation and Maintenance budget esti mate 

submission for all future conferences, including a request for sufficient reimbursable authority 

to coll ect fees from participants. Before incurring expenses, ensure that program managers 

obligate all anticipated expenses related to 0 00 personnel to support the Joint Civilian 

Orientati on Conference. 


Response for Recommend at ion A.3.: Concur.
    a. If improprieties are identi fi ed as a result of the review, OASD(PA) wil l take appropri ate
action.

     b. Concur. Effecti ve with l COe 79, scheduled for the spring 0[20 10, lCOC wi ll be fully 

 fu nded by DoD. No participant fees wi ll be collected. 


Target Implemented for A.3. - April 2010




                                                               61
Reco mmendation B.3.: We recommend that the Assistant Secretary of Defense (Public Affa irs),
in coordination with the Under Secrctary of Defen se (Comptroll er)lDoD Chief Financial Officer,
initiate a prel iminary review into the potential misuse of appropriated funds if it is deemed
appropri ate based on the actions taken in response to Recommendation B. 2. As part of the
review, they should determine whether it was legal to use Defense Operation and Maintenance
fund s for the expenses incurred and if so, whether sufficient funds were availabl e in the
appropriation to cover the improper use of Official Representation Funds. Following the
preliminary review, they should coordinate the repon with the 000 General Counsel and repon
their findin gs to the Office of Secretary of Defense.

Res ponse for Reco mm enda tion B.3.: Concur with O USD(C) response provided on August 13,
2009.

Reco mm endation C.2.: We recommend that the Assistant Secretary of Defense (Public Affairs)
and Director, Washington Headquaners Services:

         a. Conduct a preliminary review into the use of American Forces Information Service
fund s to pay for Joint Civilian Orientation Conference 74 costs. If necessary, reimburse the
American Forces Information Service for fund s obligated and re pon Bona Fide Needs Rule or
Antideficien cy Act violations to the Office of Secretary of Defense.

         b. Require the JCOC program manager and WHS, Financial Management Directorate to
work with the WHS contracting officer to review and reconcile with the invoice payments for the
two de livery orders used to fund Joint Civi lian Orientation Conference 74. They should then
reall ocate the conference expenses to the correct lines of accounting and reimburse the American
Forces Information Service as necessary; determine whether the contractor was overpaid for
services provided and take any needed co llection actions; and deposit any residual conferencc
fees into the U.S. Treasury.

         c. Detennine whether the s ix individua1s who paid for Joint Civilian Ori entation
Conference 74 but did not attend require a refund. Either make refunds or deposit the $18,000
coll ected into the U.S . Treasury as a miscell aneous receipt.

Response for Reco mm endation C.2.:
    a. Concur. Defense Media Activ ity, fonn erl y the American Forces In fonnation Service
(AF IS), wil l coordinate with Washington Headquarters Services, Financial Management
Di vision (W HS/FMD) to review use o f AFIS fund s to pay for JCOC 74 and determine if
correcti ve action is necessary.

   b. Concur. OASD(PA) will support WHSIFMD and Washington Headquarters Services,
Acquis ition and Procurement Office's review and reconciliation of the financial records and take
necessary corrective actions if necessary.

   c. Concur. OASD(PA) has provided all available in fomlation to WHSIFMD.

Recommendation 0.1.: We recommend that the Assistant Secretary of Defense (public Affairs)
coordinate with the DoD General Counsel to review the potential ethics violations arising from
the acceptance of gifts and other benefits during Joint Civilian Orientation Conferences 72 and




                                                             62
                                                                                                       Final Report 

                                                                                                        Reference






73. The review should consider conference practices for ordering and distributing mementoes
and other items and paying for receptions and entertainment costs, which benefited 000
pcrsolU1el. Based on the review, they shou ld take appropriate actions to resolve any ethics
violations.

Res ponse for Recommendation D.L: Nonconcur. OASO(PA) has no records to support or
deny this claim. As of JCOC 77, the process of orderi ng and distributing mementoes and other
items has been standardized and follows all ethics regulations. Items that are ordered and remain
unused , due to part icipant cancellation, are fonvarded to the cancelled participant. The cost of
these items is deducted from the participant ' s conference reimbursement.

        All 000 personnel present at a JCOC event are on official orders and wo rking the event,
they are not participants. Mementoes, other items, receptions, and any entertainment are not fo r
the benefit of the 000 personnel who are required to work the event.

Recommend ation 0 .2.: We recommend that the Assistant Secretary of Defense (Publ ic Affairs)        Revised for 

establish policies and procedures for paying for mementoes and other items and paying for            clarification


receptions and entertainment during Joint Civilian Orientation Conferences. These policies and
procedures shou ld specify who should receive items, the purchase quantities for each item , and
how to mai ntain an inventory and account for Ihe excess items. If the program managers require
slafT members and other 000 personnel to receive the items, the program manager should
detemline an appropriate way to fund the purchases. The procedures should be coordinated with
the 000 General Counsel.

Response for Recomm endation 0.2.: Nonconcur. OASO(PA) fo ll ows established financial
management po licies and procedures. Effective with JCOC 79, schedu led fo r the spring of 201 0,
JCOC wi ll be fu lly funded by 000. No participant fees will be collected. All purchases will be
made in accordance wilh current financial management regulations. An accurate inventory and
account ing of items wi ll be maintained.


      We will continue to work on improving our organization by implementing the
recommendations, as ind icated above, and we wil l keep your staff apprised of our progress.



                                              £%~
                                             Price B. Floyd
                                             Princ ipal Deputy Assistant Secretary
                                               of Defense for Public Affairs




                                                              63
General Counsel of the DOD Comments






                                  OEPARTMENT OF OEFENSE
                                 OFFICE OF GENERAL COUNSEL
                                    1600 OEFENSE PENTAGON
                                   WASHINGTON , DC 20301 · 1600



      ofCondlKt Offlee



           MEMORANDUM FOR PROGRAM DlRECfOR, DEFENSE FINANCIAL AUD ITING
                           SERVICE, OFFICE OF T HE INSPECTOR GENERAL,
                           DEPARTMENT OF DEFENSE

           Subject: Joint Civilian Orientation Conference Program
                    Project No. D2007-000FI-215 .001

                  This memorandum forwards Ihe Office of General Counsel response to the
           subject draft audit report. A copy of the response is .".cbed.

                  The Office of General Counsel appreciates the opportunity to comment on
           the subject report.
           5!            '   ,




                                               ~~ Director

           Attachment:
           As Stated




                                                             64
                       PROJECT NO. D2007-DOOOFI-02IS.001


         JOINT CIVILIAN ORIENTATION CONFERENCE PROGRAM

DOD OFFICE OF H IE GENERAL COUNSEL (GC) COMMENTS TO THE DOD
OIG RECOMMENDATIONS.


       Initially, GC notes that, while the request only asked for ou r comments on
Reconunendations A.2 and D. I) the draft report also includes references to or requires
coordination with the Office of General Counsel on Recommendations A.I and 0 .2.
Therefore, this response includes responses to those recommendati ons as well.

RECOMMENDAnON A.I: We recommend that the Assistant Secretary of Defense
(Public Affairs) and the Director, Washington Headquarters Services, work with the DoD
Office of General Counsel to establish detailed policies and procedures for managing
future Joint Civilian Orientation Conferences in com pliance with section 2262. title 10,
United States Code. Specifically, they should:

       a. Update 000 Instl1lction 54 10.19 to provide guidance 011 how to effectively
administer and manage the Joint Civilian Orientation Conference program. This guidance
should requ ire the development and submission of an annual budget estimate for
conducting the program) including an estimate of the amount of appropriated funding
needed to support DoD personnel involved in the program and the amount of
reimbursable authority needed to collect fees from non-DoD participants. The instruction
shou ld also describe refund procedures for conference fees.

       b. Update Administrative lnstruction No. 48 or rescind it and issue a new
instruction or other enforceable standard operating procedure delineating the
responsibilities of the Joint Civilian Orientation Conference program manager and staff
to administer and oversee the program. The guidance should also define the
responsibilities of the Wash ington Headquarters Services in supporting the program's
planning, execution, and funds control.

       c. Provide training on the new guidance to the Joint Civilian Orientation
Conference program manager and staff, as well as Washington Headquarters Services
pcrsolUlel supporting the program.

RESPONSE TO A.I: Concur. The General Counsel has no legal objection to the
recommendations made.




                                                        65
                                                                                                    Final Report 

                                                                                                     Reference






TARGET DATE: GC will respond in a timely fashion to any request tor coordination
or collaboration with regard to this recommendation.


RECOMMENDATION A.2: We recommend that the Assistant Secretary of Defense
(Public Affairs) and Director, Washington Headquarters Services, in conjunction with the
Offices of the Under Secretary of Defense (Comptroller) and DoD General Counsel,
initiate a preliminary review of the use of the Joint Civilian Orientation Conference fees
received since the inception of thc Miscellaneoll.fii Receipts Statute. The review should
detennine whether:
   • augmenting the Office of Secretary of Defense appropriated funds allotment with
       conference fees resulted in an Antideficiency Act violation,
   • sufficient Defense Operation and Maintenance funds were available for the 55,869
       cost ovenun on Ioint Civilian Orientation Conference 73, and
   • the treasurer correctly closed the bank account and refunded overpaid conference
       fees.

Following the preliminary review, they shou ld take appropriate actions or legal remedie.~
to address improprieties and report the ftndings to the Office of Secretary of Defense.

RESPONSE TO A.2 : Partially concur. The General Counsel agrees with the Deputy
Chief Financial Officer response. The General Counsel further notes that the initial
proposed action by the Assistant Secretary for Defense (public Affairs) fails to include
invocation of the authority under 10 U.S.c. § 2262, to collect and expend user fees from
participants. Exercising this authority would conserve Operation & Management
appropriates.

TARGET DATE: GC will respond in a timely fashion to any request for coordination
or collaboration with regard to this reconunendation.


RECOMMENDATION DJ : We recommend that the Assistant Secretary of Defense                          Revised


(public Affairs) coordinate with the DoD General Counsel to review the potential ethics
violations arising from the acceptance of gifts and other benefits during Joint Civilian
Orientation Conferences 72 and 73. The review should consider conference practices for
ordering and distributing mementos and other items and paying for receptions and
entertainment costs that benefited DoD personnel. Based on the review, they should take
appropriate actions to resolve any ethics violations.

RESPONSE TO D.!: Partially concur. The General Counsel concurs with the                      .'
recommendation but on djfferent legal grounds. The legal analysis for the ethical failures
is flawed. The report cites to 5 C.F.R. § 2635, Subpart B, entitled Gills from Outside
Source. However, the gifts in question- mementos, food, entertainment. and other

                                             n




                                                        66
                                                                                                Final Report 

                                                                                                 Reference






items-were procured using appropriated funds or conference fees which DoD has
statutory authority to collect. Subsection 203(b)(7) OrUle aforementioned rules
specifically excludes from the definition of gifts " [a]nything which is paid for by the
Government or secured by the Government under Government contract." Therefore, the
items in question were not gifts from outside sources, and the general prohibition on their
acceptance is inapplicable.
                                                                                              Revised pages
The applicable ethical rule appears to misuse of government resources. Specifically,
                                                                                              37-40 to discuss
5 C.F.R. § 2635.704. Subsection 704 states: "An employee has a duty to protect and
                                                                                              5 C.F.R 2635.704
conserve Government property and shall not use such property, or allow its use, for other
than authorized purposes." However, the real concern here is a question of fiscal law­
namely, could the program manager legally expend funds for mementos, meals,
entertainment, and other items as a necessary expense for the JCOC program? It is
unclear whether the lCOC program manager inappropriately purchased excess mementos
and other items. The report does not include factual infonnation about the anticipated
number of participants at the time the lCOe program manager made the expenditure.
Therefore, it is unclear if ordering 50 of each memento or other item was improper.

Distribution of excess mementos and other items to leOe staff appears to be misuse of
government property. assuming the items were purchased for the purpose of distribution
to leOC participants. The items should have been preserved for official use. There is no
information, however, on whether the program manager believed distribution to staff was
for official or authorized purposes (e.g., authorized for on the spot awards or the like),
and whether this was appropriate.

Finally, it is unclear whether JeOe staff consumption of the meals raises ethical
concerns. The report suggests that the staff were on trave l orders accompanying JCOC
participates on OCONUS site visits in the Middle East. No factual findings were made
about the availability of meals for staff while on travel or whether their duties required
that they remain with the JCOC participants during meal times. The considerations for
ethical purposes is whether the staff appropriately vouchered per diem on the days when
meals were provided, and whether those means were a necessary part of the leOe
program. Ethical considerations, however, are superseded by considerations of whether
under tile Joint Travel Regulations (JTR), employees properly reduced the per diem they
received. The lTR requires employees to reduce the per diem received if meals were
provided. Otherwise, they would be receiving payment for meals which were already
provided using appropriated funds. See 5 C.F.R. § 2635. 101 (b)(7)("Employees shaJl not
use public office for private gain),


                                             iii




                                                        67
                                                                                          Final Report 

                                                                                           Reference





           the Office of General Counsel agrees that review of the ethical implications
and remedial action to respond to any violations is appropriate, but not for improper
acceptance of gifts but rather misuse of government resources-use of appropriated funds
and conference fees in violation of fiscal law, the JTR and other applicable law.

TARGET DATE: GC will respond in a timely fashion to any request for coordination
or collaboration with regard to this recommendation.


RECOMMENDATION D.2 : We recommend that the Assistant Secretary or Defense
(public Affairs) establish policies and procedures for paying for mementos and other
items and paying for receptions and entertainment during Joint Civilian Orientation
Conferences. These policies and procedures should specify who should receive items, the
purchase quantities for each item, and how to maintain an inventory and account for any
excess items. If the program managers require staff members and other DoD persoWlcl to
have the items, the program manager should determine an appropriate way to fund the
purchases. The procedures should be coordinated with the 000 General Counsel.

RESPONSE TO D.2: Concur. The General Counsel has no legal object to this
recommendation.

TARGET DATE: GC will respond in a timely fashion to any request for coordination
or collaboration with regard to this recommendation.




                                           iv




                                                       68
Administration and Management, Office of Secretary of
Defense Comments




                                           OFFICE OF TIlE SECIlETAIlY OF IJEFENSE
                                                      1950 Ot-: FENSE rf:NTAGON
                                                    WASI-IINGTON . DC 20301 .1 950

                                                                                                     GCT 1 5 10G9
      .... 5TIU. nON ..... D
     M"N"GVoIIENT




             MEMORANDUM FOR PROGRAM DIRECTOR. DEFENSE FINANCIAL AUDITING
                              SERV ICE. OFFICE OF THE INSPECTOR GENERAL.
                              DEPARTMENT OF DEFENSE

            SUBJECT: Response to Drall Audit Report. "Joint Civil ian Orien tat ion Conference
                     Program" (ProjecI No. D2007·DOOOFI·0215.00 I)


                   Thank you for the opportunity to com ment on the subject draft rcport. The
            Director Administration and Management and Washington Headq uarters Services (WI-IS)
            responses to the rccommenda li ons arc as follows :

                           Recommendation A. I: We recommend that the Assistant Sec retary of Defense
                           (Pub lic Affairs) and the Director. Washington Headquarters Services. work with
                           the DoD Ge neral Counsel to estab li sh detailed policies and procedures for
                           managing future loint Civili an Orientation Conferences in compliance with
                           scclion 2262. lille 10. Uni lCd Slales Code. Specifically. Ihey shou ld:

                                a. Update DoD Instruct ion 54 10. 19 to provide guid ance on how to clTectively
                                   administer and manage the l oint Civi lian Orientat ion Conferen ce program.
                                   This guidance should require the deve lopment and submi ssion of an annua l
                                   budget estimate fo r conducting the program. includ ing an esti mate of the
                                   amount ofapproprialed funding needed to support 000 personnel involvcd
                                   in the program and the amount of reimbursable authority needed to collect
                                   fees from non-DoD participants. The instruction should a lso describe
                                   refund procedures for conference fees.

                               b. Update Ad mini strati ve Instruction No. 48 or rescind it and iss ue a new
                                  instruction or other cn'on;eable stan dard operating procedure delineating
                                  the responsibilities oflhe loint Civilian Orientation Con ference program
                                  manager and stafTto administer and oversee the program. The gu idance
                                 should also define the respons ibilities of the Washington Headq uarters
                                 Services in supportin g the program 's planning. exec ution. and funds
                                 control.

                               c. Provide training on the new guidance to lhe Joint C ivilia n Orienta ti on
                                  Conlercncc program manager (lnd staO: as well as Washington
                                  Headquarters Services personnel supporting the program.




                                                                               69
Res ponse to Recommendation A.I:

          a. 	Concur. ASD(PA) will update DoD Instruction 5410.19 to reflect new
              procedures. to include no collection of participant fees.

          b. 	Concur. Washington Headqua rters Services will resc ind Adm inistrative
              Instruction No. 48.

         c. Concur. Washington Headquarters Services supports ASD(PA) training to
            enhance the program management or Jeoe.

     Recommendation A.2: We recommend that the Assistant Secretary of Defense
     (Pu bl ic Affairs) and Director. Wash in gton Headquarters Services. in conj unction
     with the Offices of the Under Sec retary of Defense (Comptroller) and DoD
     General Cou nsel. initil]te a prel iminary review of the usc of the Joint Civilian
     Orien tation Conference fees received sinee the inception of the Miscellaneous
     Receipts Statute. The revi ew should dctcnninc whether:

         • augmenting the Otlice ofSccretary of Defense appropriated funds a llotment
           with conference fees resulted in an Antideficiency Act violati on,

         • suffic ient Defense Operati on and Maintenance funds were avai lable for the
           $5.869 cost overrun on Join t Civilia n Orientati on Confe rence 73 . and

        • the treas urer correctly closed the bank account and refunded overpaid
          conference fees.

         Following the preliminary review. they s houl d take appropriate actions or
     legal remedies to add ress improprieties and report the findings to the Office of
     Secretary of Defense.

     Response to Recommendatio n A.2: Concur with OUSD(C) response to thi s
    recommendation dated August 13.2009. However. the findings that gave rise to
    this recommendation we find to be de minimis. The $500 conference fees were
    properly refunded to the participants who did not attend the events. and no one
    complained of not receiving th eir refund. The treasurer infonned the JeOC
    manager tha t the actual costs exceeded the estima ted costs. The JeOC manager
    infonncd the treas urer that there were suffic ient fu nds available to cove r the
    actual costs.

    Recommendation B.I: We recommend tha t the Director of Administra ti on and
    Management update DoD Directive 7250. 13 to require a lega l review of all
    planned uses ofOflicial Representation Fu nds in support of th e Joint Civilian
                                         2




                                                      70
                                                                                         Final Report 

                                                                                          Reference






  Orientation Conference program. and provide DoD personnel with proper training
  on the legal requirements for administer in g and lIsin g Official Represen tation
  Fu nds.
  Response to Recommendation B.1: Nonconcur. The WI-IS stafT th at manages
  the Official Representation Funds (ORF) is a trained professional staff. and they
  follow the federa l Jaws and regulations for admini stering and using ORF: review
 of all ORF requirements by OGC is not required. WHS personnel use
 professional know ledge. experience and j udgmcnt 10 revicw ORF requests and
 obta ined legal advice as needed. WHS provided the DoDIG on April 10. 2009
 with the business process docum entat ion. ORF process overview. ORF approval
 thresholds. and standard operating procedures lar ORF.

Recommendatio n 8.2: We recomm end that the Director of Administration and
Management direct th e Washington Headquarters Services. Financial
Managcmelll Directorate. to work with the Offices of the Un der Secretary of
Derense (Comptroller) and DoD Genera l Counsel to:

    n. conduct a review to dctennine whether the use ofOflicia l Representation
       Funds by ongoi ng programs. such as the Joint Civilian Orientation
       Con terence. meet Ihe lega l requirements of sectio n 127. title 10. United
       States Code:

   b. detennine whether the loint Civilian Orien tation Conference program
      misused the fund s and violated public law: and

   c. determi ne whether DoD pcrsonnel or the conference planner
      inappropriate ly benefited from the Joint Civilian Orientation Conference 74
      cash advance.

Response to Recommendation B.2:
  a. Nonconcur. A separate review to determine the usc of Official
     Representation Funds meeting Ihe legal requirements of section 127. title
     J O. United States Code is outside the scope of thi s audit.

  b. Nonconcur. Reference page 18. paragraph 2. Disagree with the IG                   Page 22 

     recommendat ion and findings in reference to the treasurer depositing
     $18.050 on October 30. 2007 in the treasurer's personal account and the
    slatcment that the treasurer may have rcceived interest earned from the
     bank account. Prior to JCOC 74. therc was a bank account specifically for
    JCOC fi nancial transactions. Th is account was closed al the time th e
    treasurer deposited the money in hi s account. This was done for security
    reasons in li eu of carry ing the money on his person. The treasurer was not
    aware at the lime that his bank account was an iOlerest bearing account.

                                    3




                                                 71
                                                                                               Final Report 

                                                                                                Reference






       The amoun t 0 1' $18.050 was in the treasurer' s account for less than 3
       months. The treasurer paid several c hecks from November 1.2007 through
       January 15.2008 for $9.998.43 to close out ORl' ex penses. He also issued
        a check on January 15.2008 to the US treasury fo r the remaining amount of
        $8.053. The auditor did not request any supporti ng documentat ion related
        to th is matter. The auditor should verify th e audi t fi ndi ng. obtain adequate
        supporting documentation. calcu late the impact of th e interest that may
        have accrued and consider the materiality o f the issue in stead of using
       speculation. WI IS requested that the treasurer provide ba nk statements for
       CY 2007 and CY 2008 to verify the tala I interest he gained on his personal
       account during the two years. The total interest amount was $6.40.
       App lying the 0.05% interest rate as shown in the treas urer bank statement
       for the entire year 0 11 the amount of $ 18.050 which was in hi s account for
       two mont hs. th e maximum total interest incurred on that account for C Y
       2007 cou ld have been $3.83.

    e. Nonconcur. Reference page 18. paragraph 3. The DoDIG auditor did not                  Page 22 

       obtain or request sufficien t. approp riate evidence to provide a reasonable
       bas is for their findings and conclus ions wi thin the context of the aud it
       objec ti ves. The auditor did not veritY if the govern ment credit card was a
       personal govern men t cred it card or govern ment trave l cred it card . The
       treasurer used a governm ent travel card for the JCOC program that was
       iss ued strictly to pay for th e JCOC expenses and not for personal travel
      expenses. The aud itor appa rently assumed it was a personal government
      credi t card.

       The contrac tor/pl anner was asked to review their records. The contractor
       ident ified the $ 1064 mentioned in the review of the ORF funding (page 27) as a
       possib le overpayment sincc the contractor could not produce a bill that validated
                                                                                             Page 33 

       the need for payment. The payment was ou tside the bounds of the contract but
       was understood at the lime to be necessary to reimburse the contractor for
      additional dining costs for officia l guests since the e M!' business American
      Expn:ss card was held as responsible lo r inci dental s that were not covered by the
      deposit payment of$50 16. Si nce there is no evidence additional dining costs
      were incurred or billed, the contractor has relumed Ihe erroneous payment 10
      FMD in a check written to the US Treasury . FMD received the refund after
      rece ipt of the 10 report. The discovery of thi s error would have occurred
      when the ORF account was rec onciled.

Recommendation C.2: We recommend that the Assistant Secretary of Defense
(Publi c Affairs) and Director. Washi ngton Headquarters Services:




                                      4




                                                     72
      a. Conduct a prclimin ary review of the use of Ameri can Forces In fo rm ation
         Service Ilmds to pay fo r Jo int Civ il ian Oricnlati on Confercnce 74 costs. If
         nccessary. reimburse the Ameri can Forces Info rmati on Service for funds
         obli gated and report Bona Fide Nceds Rule or Antide fi cicncy Ac t
         vio lations to the O ffice o f Secretary of Defense.

      b. 	Require the JCOC program manager and WHS. Financ ial Managemen t
         Directorate to work with the WH S contr3ct ing oflicer to rev iew and
         reconci le the invoice payments for the two de li very orders used to fll nd
         Joint Civili an Orientati on Conference 74. They shou ld then reall ocate th e
        conferencc expenses to the correct lines of accou nt ing and rci mburse the
         Am eri can Forces Inform ation Scrv ice as necessary: detcnnine whether th e
        contractor was overpa id fbr services provided and take any needed
        collecti on actions: and depos it any res idua l con te rencc fecs into the U.S.
        Treasury.

     c. Determ ine whether the six indi viduals who pa id for Joint Civi li an
        Orientati on Confe rencc 74 but did not attend req uire a refund. Either make
        re fu nds or depos it the $ 18.000 co ll ected into the U.S. Treasury as a
        miscell aneous rece ipt.

Respon se to Recommendation C.2:

     a. Nonconcur. 	The AF rS miss ion and AS D(PA) miss ion are aligned as
        indicated in the FY 2007 budget.

    b. ConclIr wi th recommendati on to review and reconcile invoices and
       payments tor the two de livery orders. Contracting has reviewed in voices
       and fo und th at the contractor correctly invo iced for items and services that
       were with in th e scope o f eac h tas k order. The contractor was not overpaid
       for services perform ed under the contract.

    c. Nonconcur. 	The JCOC manager req uested the treasurer to refund the JCOC
       conference fees to the part icipants who did not attend the conference. The
       treasurer noti fied DFAS to refu nd the fees to the part icipants. and DFAS
       rerunded the fces in September 2008.

 Recommenda tion C.3: We recommend that the Director. Washin gton
Headq uarters Services direct the Seni or Acquis ition Executive in his o ffice to
review the use of indefi nite-dcli very. ind efini te-quanti ty contract HQ0034-06-D­
 1007 and ensure tha t all fut ure delivery orders the contracting o niccr issues meet
the requ irements o f section 2262. ti tle JO. United States Code. The Seni or
Acquis ition Executivc should also direc t the contracting oflicer to appoi nt a

                                      5




                                                    73
 Contract ing Ofli eer Representative and obtain a complete statement of work for
 each delivery order to ensure that the contrac tOr bills costs to the correct delivery
 order and Contract Li ne Item Number.

 Response.o Recommenda.ion C.3: Conc ur. The contract HQ0034-06-D- 1007
 is at capacity and no fu rther task orders wi ll be placed agai nst it. Future ID lQ
contracts will be rev iewed for correct usage. Contracting Ofticers and Contract
Specialists contemplating an LDIQ contract will be required to follow guidance
found at FAR 16.5 and DFARS 2 16.5. The task order planning sessions that are
the subject of thi s report began with the review of 10 USC 2262 for application to
the contractual work. one of the task orders on this contract required or
authorized the contractor to collect funding in support of th e events. On ly
ASD(PA) collected th e fundin g and turn ed it over to WI-ISlFinanc ial
Management Directorate. which certified the fund ing for purpose. li me. and
amoun t for use on th e contract task orders. All excess amounts on the task orders
0010 (none) and 00 11 ($39.360.58), lVere de-obligated from the contract(s) on
November 28. 2007. In addi ti on. the Contracting Oflicer's Representative (COR)
Poli cy and guid ance from OS D dated Aug ust 22. 2008 and WH S Operatin g
In struct ion WH S 0 1 50-03 (Contracting Ollieers Representati ve) dated March
30.2007 are in place.




                                  ~
                                     Mi chael L. Rhodes
                                     Acting Direc(or




                                    6




                                                  74
